<html>
<title> - TREATMENT OF LATIN AMERICANS OF JAPANESE DESCENT, EUROPEAN AMERICANS, AND JEWISH REFUGEES DURING WORLD WAR II</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
 TREATMENT OF LATIN AMERICANS OF JAPANESE DESCENT, EUROPEAN AMERICANS, 
                AND JEWISH REFUGEES DURING WORLD WAR II

=======================================================================



                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2009

                               __________

                           Serial No. 111-13

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
48-322                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
LUIS V. GUTIERREZ, Illinois          JASON CHAFFETZ, Utah
BRAD SHERMAN, California             TOM ROONEY, Florida
TAMMY BALDWIN, Wisconsin             GREGG HARPER, Mississippi
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York
[Vacant]

       Perry Apelbaum, Majority Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

HOWARD L. BERMAN, California         STEVE KING, Iowa
SHEILA JACKSON LEE, Texas            GREGG HARPER, Mississippi
MAXINE WATERS, California            ELTON GALLEGLY, California
PEDRO PIERLUISI, Puerto Rico         DANIEL E. LUNGREN, California
LUIS V. GUTIERREZ, Illinois          TED POE, Texas
LINDA T. SANCHEZ, California         JASON CHAFFETZ, Utah
ANTHONY D. WEINER, New York
CHARLES A. GONZALEZ, Texas
WILLIAM D. DELAHUNT, Massachusetts

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 19, 2009

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     4

                               WITNESSES

Mr. Daniel M. Masterson, Professor of Latin American History, 
  U.S. Naval Academy
  Oral Testimony.................................................     6
  Prepared Statement.............................................     8
Ms. Grace Shimizu, Director, Japanese Peruvian Oral History 
  Project (JPOHP)
  Oral Testimony.................................................    11
  Prepared Statement.............................................    12
Ms. Libia Yamamoto, former Japanese of Latin American Descent 
  Internee
  Oral Testimony.................................................    14
  Prepared Statement.............................................    16
Mr. John Christgau, author of ``Enemies: World War II Alien 
  Internment''
  Oral Testimony.................................................    25
  Prepared Statement.............................................    27
Ms. Karen E. Ebel, President, German American Internee Coalition
  Oral Testimony.................................................    31
  Prepared Statement.............................................    33
Ms. Heidi Gurcke Donald, Board and Founding Member, German 
  American Internee Coalition
  Oral Testimony.................................................    40
  Prepared Statement.............................................    42
Mr. John Fonte, Director of Center for American Common Culture 
  and Senior Fellow, Hudson Instutute
  Oral Testimony.................................................    48
  Prepared Statement.............................................    49
Mr. David A. Harris, Executive Director, American Jewish 
  Committee (AJC)
  Oral Testimony.................................................    62
  Prepared Statement.............................................    64
Mr. Leo Bretholz, author of ``Leap Into Darkness''
  Oral Testimony.................................................    67
  Prepared Statement.............................................    68
Mr. Valery Bazarov, Director of Location and Family History 
  Service, Hebrew Immigrant Aid Society (HIAS)
  Oral Testimony.................................................    70
  Prepared Statement.............................................    72
Mr. Michael Horowitz, Senior Fellow, Hudson Institute
  Oral Testimony.................................................    81
  Prepared Statement.............................................    83

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................    93
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................    93
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................    94
Additional Material submitted for the Record.....................    95

                        OFFICIAL HEARING RECORD
      Material Submitted for the Hearing Record but not Reprinted

``Last Man Out: Glenn McDole, USMC, Survivor of the Palawan Massacre in 
    World War II,'' by Bob Wilbanks

``The Misplaced American,'' based on the memoirs of Elsie, Karl, Henry, 
    Marta, Lisbeth, Armin and Ursula Vogt, by Ursula Vogt Potter

``We Were Not the Enemy: Remembering the United States' Latin-American 
    Civilian Interment Program of World War II,'' by Heidi Gurcke 
    Donald

``From the Heart's Closet,'' A Young Girl's World War II Story, by 
    Anneliese ``Lee'' Krauter

``Magic: The untold story of U.S. Intelligence and evacuation of 
    Japanese Residents from the West Coast During WWII,'' by David D. 
    Lowman

``Enemies: World War II Alien Internment,'' by John Christgau


 TREATMENT OF LATIN AMERICANS OF JAPANESE DESCENT, EUROPEAN AMERICANS, 
                AND JEWISH REFUGEES DURING WORLD WAR II

                              ----------                              


                        THURSDAY, MARCH 19, 2009

              House of Representatives,    
      Subcommittee on Immigration, Citizenship,    
   Refugees, Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 12:15 p.m., in 
room 2237, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Sanchez, Waters, King, 
and Lungren.
    Also present: Representative Wexler.
    Staff present: Ur Mendoza Jaddou, Majority Subcommittee 
Chief Counsel; Andres Jimenez, Majority Professional Staff 
Member; and Andrea Loving, Minority Counsel.
    Ms. Lofgren. The Subcommittee will come to order. This is a 
hearing not on any bills, but on the issues of a part of our 
U.S. history that many of us are unfamiliar with. Much is known 
about the internment of 120,000 Japanese Americans during World 
War II, partly due to the enactment of the Commission on 
Wartime Relocation and Internment of Civilians Act in 1980, the 
commission's report in 1983, and the subsequent Civil Liberties 
Act of 1988, that provided an official apology.
    What is not as well-known to today is the mistreatment of 
thousands of Japanese and European Latin Americans, European 
Americans, and Jewish refugees prior to and during World War 
II. The 1980 commission did detail the mistreatment of 
Japanese, German, and Italian Latin Americans, but only in the 
appendix of the report. It also included one chapter, 13, on 
the mistreatment of German and Italian Americans in the United 
States.
    Further, no recommendations were made on these populations; 
no apology, as was done for the Japanese internment, pursuant 
of the Civil Liberties Act. And I think it is time for this 
history to be fully heard and considered.
    As I mentioned, although there are two bills that have been 
referred to the Subcommittee concerning the issues we are 
examining today, this is not a legislative hearing. Before we 
consider specific legislation on an issue that many are very 
unfamiliar with, it is important that we learn the facts and 
listen to the history to determine whether legislation is the 
appropriate response. If it is, we will then turn to those 
referred to this Subcommittee and examine whether the specific 
language in the bills is appropriate or whether amendments 
would be needed.
    I welcome comments in the bills and will consider them if 
we decide to move legislation in the area. Today, however, I am 
particularly interested in learning about the issue and whether 
another commission is indeed necessary to review history that 
has not been told in an adequate way.
    Before recognizing the Ranking Member, I would like to ask 
unanimous consent to submit to the record a statement from our 
colleague, Congressman Becerra, and without objection that is 
made a part of the record and I would also like to note the 
presence of our colleague and my fellow Santa Fean, Congressman 
Mike Honda, who is here with us.
    [The prepared statement of Mr. Becerra follows:]
Prepared Statement of the Honorable Xavier Becerra, a Representative in 
                 Congress from the State of California
    Chairwoman Lofgren, Ranking Member King and distinguished members 
of the subcommittee, thank you for scheduling today's hearing. I 
appreciate your efforts to examine the United States government's 
treatment of Latin Americans of Japanese descent during World War II, 
an issue and a community whose story been overlooked far too long.
    To ensure that the United States properly examined this issue, I 
introduced H.R. 42, the Commission on Wartime Relocation and Internment 
of Latin Americans of Japanese Descent Act. This legislation 
establishes a commission to investigate and review the facts relating 
to the abduction and internment of Japanese Latin Americans during 
World War II by the U.S. government.
    Before I proceed any further, I would like to thank Grace Shimizu, 
Libia Yamamoto, and Professor Daniel Masterson who will be testifying 
in the first panel of today's hearing. Their extensive knowledge and 
poignant stories of the Japanese Latin American experience will provide 
valuable insight and a deeper understanding of the tragedy this 
community endured during World War II.
    I would also like to recognize and honor the wonderful men and 
women of the Campaign for Justice and the Japanese American Citizens 
League for their constructive advice and indispensable support. These 
groups can be an invaluable resource to this committee as you continue 
to study this issue.
    Finally, I want to thank Senator Daniel K. Inouye of Hawaii, a 
decorated World War II hero and an exemplary public servant who has 
been a tireless advocate in moving the Japanese Latin American issue 
forward in the Senate.
    Nearly 70 years ago, nations of the world engaged in a battle that 
determined if the principles of democracy would be the predominant form 
of government around the world. When the Empire of Japan attacked Pearl 
Harbor in 1941, the United States entered World War II and led the 
battle to topple tyranny and restore liberty. However, in the course of 
this unrelenting and necessary fight, the government took extraordinary 
actions under the mantle of domestic security and sent 120,000 Japanese 
Americans to internment camps across the country. Even as U.S. 
servicemen fought in the Pacific to liberate Allied soldiers from 
Imperial Japanese prisons, our own government held thousands of people 
in camps across the country solely on the basis of their ethnic 
background.
    It took another thirty five years for America to come to terms with 
and acknowledge its egregious actions during the war. In 1980, Congress 
established the Commission on Wartime Relocation and Internment of 
Civilians and charged it with the responsibility of reviewing the facts 
and circumstances surrounding the internment of people of Japanese 
descent and to recommend appropriate remedies. After twenty days of 
hearings, testimony from 750 witnesses, and review of thousands of 
government and military records, the Commission concluded that 
internment of Japanese Americans was the result of racism and wartime 
hysteria. Their findings vindicated these loyal Americans and President 
Ronald Reagan's signing of the Civil Liberties Act of 1988 brought 
closure for thousands who suffered unspeakable indignities and 
tremendous losses.
    Unfortunately, the Commission did not fully address our 
government's treatment of Japanese Latin Americans. As a result, 
Japanese Latin Americans who were unjustly abducted and interned by the 
U.S. continue to live with the painful memories of those lost years. 
Many remain hopeful they will one day be able to have their important 
accounts included in the official narrative.
    Art Shibayama is one of the few remaining living Japanese Latin 
American internee and he anxiously waits every day to share his 
experiences before time runs out. Art served this nation as a corporal 
in the U.S. Army from 1952 to 1954. Like many veterans, he was not born 
in the U.S. He was born in Lima, Peru to Isseis, first generation 
immigrants from Fukuoka, Japan. Despite uncertainty and war ravaging 
abroad, Art and his family had an idyllic life. His parents had a 
thriving textile business and he spent leisure time with his two 
brothers, three sisters and grandparents. That life ended when the 
entire Shibayama family was detained and transported to an internment 
facility in Crystal City, Texas. In addition to losing all their 
material belongings, Art's grandparents were forcibly sent to Japan 
shortly after the family's arrival in the United States. Art and his 
family never saw them again. After two and a half years in the 
internment camp, he and his family were released and they moved to 
Seabrook Farms, New Jersey and then to Chicago in 1949. After receiving 
his citizenship in 1970, Art moved to California where he continues to 
reside today. Art was unable to travel to participate in today's 
hearing, but I want him to know that he is in our thoughts at this 
moment.
    Art's experience is not uncommon. There are hundreds of other 
internees from Latin America who can tell similar stories about the 
fear endured while being led out of their home at gunpoint, about the 
trauma of a 21-day boat ride from Peru to New Orleans and of the 
humiliation of being forced to strip naked upon arrival in the U.S. and 
sprayed with insecticides. Others can share vivid accounts of living in 
the squalor of an internment camp barrack, the emotions of being a 
``stateless'' person facing language barriers and having to traverse 
the federal bureaucracy to obtain legal resident status, and about the 
heartbreak of being permanently separated from a family member. This is 
the reality thousands of Japanese Latin Americans faced.
    In fact, approximately 2,300 men, women, and children of Japanese 
ancestry were abducted from 13 Latin American countries and deported to 
internment camps in the United States during the World War II. The U.S. 
government orchestrated and financed this operation with the intention 
of using these individuals as hostages in exchange for Americans held 
by Japan. Over 800 people, some who were second or third generation 
Latin Americans and had no familial or linguistic ties to Japan, were 
used in two prisoner of war exchanges. This was the ultimate fate of 
Art Shibayama's grandparents. Some of the remaining detainees were held 
in U.S. internment camps until after the end of the war.
    The virtue of our nation lies in its ability to reconcile the past 
and come to terms with its mistakes. There is no better way to do so 
than to complete the historical narrative on this part of our nation's 
history. In the appendix of the Commission's report to Congress, 
Personal Justice Denied, the federal government's role in kidnapping 
and detaining Japanese Latin Americans was recognized. However, the 
Commission acknowledged it had not researched documents that existed in 
distant archives or received official testimony from government 
officials or internees. Surviving internees must be given the 
opportunity to testify so they may have the closure and justice they 
deserve.
    H.R. 42, the Commission on Wartime Relocation and Internment of 
Latin Americans of Japanese Descent Act, would establish an official 
record of this tragic incident in American history. Nine commissioners 
appointed by the President, the Speaker of the House of 
Representatives, and the President pro tempore of the Senate would be 
charged with holding public hearings and submitting a report of their 
findings and recommending appropriate actions to Congress.
    Madam Chair, thank you for examining the issue of our government's 
treatment of Japanese Latin Americans during World War II. With the 
advanced age of many of the remaining internees, there is an urgent 
need to act expeditiously. I urge this committee to promptly consider 
and report H.R. 42 so that surviving Japanese Latin American internees 
can finally have their experiences registered in the official account 
of our nation's history. I look forward to working with you and my 
colleagues to pass the Commission on Wartime Relocation and Internment 
of Latin Americans of Japanese Descent Act.
                               __________

    Ms. Lofgren. Mr. King, you are recognized.
    Mr. King. Thank you, Madam Chair. I want to thank the 
witnesses in advance.
    Congress and the Executive Branch have addressed the issue 
of World War II internment many times. In fact, a quick perusal 
of the issue finds no fewer than four pieces of legislation 
passed by Congress and enacted into law. Two sets of amendments 
made to some made some of the point that legislation at least 
two commissions established to report on the issue, at least 
four occasions when the Federal Government financially 
compensated individuals for their relocation, two apologies 
from the office of the President of the United States, and at 
least $2 billion spent investigating, researching, and 
providing compensation to individuals affected by these 
policies.
    There is no shortage of the Federal Government's 
acknowledgement of the World War II relocation policies. What I 
might point out, however, is that I could find relatively 
little mention of the country's predicament at the time of the 
enactment of these policies, and then-President Franklin 
Roosevelt's issuing of Executive Order 9066, which was on 
February 19 of 1942.
    The context is that the United States was being attacked in 
an all-out global war that we did not seek. U.S. citizens were 
being killed. The future of civilized society lay in the 
balance, and the President has a responsibility to protect the 
population from future attack and from the theft of military 
and intelligence secrets and acts of sabotage by our enemies.
    There have been a few writings on the issue. For instance, 
David Lowman, former special assistant to the director of the 
National Security Agency, wrote about espionage tactics by the 
Japanese that involved soliciting Japanese Americans to spy on 
U.S. institutions. I would have liked to have invited Mr. 
Lowman to testify today, but he is deceased; however, he did 
testify in front of the House Judiciary Committee about this 
same topic in June 1984.
    I also looked at the report of the Commission of Wartime 
Relocation and Internment of Civilians, thinking it would 
surely mention the intelligence gathered by the Roosevelt 
administration as a reason for the enacting of the relocation 
policies, but there didn't seem to be any mention of it in that 
report either. In fact, Mr. Lowman points out in his book, the 
commission concluded, ``The commission concluded that there was 
no evidence of espionage by west coast Japanese residents.''
    He does go on to note that the commission overlooked the 
intelligence on the subject which was charged to--which it was 
charged to investigate and that this same intelligence was the 
reason Executive Order 9066 was issued by President Roosevelt 
in the first place. Such a rewriting of history is indefensible 
and does a disservice to good people who had to make tough 
decisions in trying times.
    Maybe what we need is a commission on useful accounting of 
the espionage, sabotage, and pro-Nazi, pro-Hitler agitation 
that did take place on our shores before and during World War 
II. I understand that there have been some groups of people not 
included in the reports previously issued on the topic of 
treatment of civilians during World War II. But how many more 
times will we be forced to revisit this issue?
    To establish a commission to review how U.S. government 
treated every person during World War II is ludicrous, yet that 
is exactly where we are heading each time this issue is raised. 
There is no getting around the fact that the Federal Government 
must take appropriate actions during times of war to protect 
its citizens.
    In fact, our founding fathers recognized, and they 
recognized that when they enacted the Alien Enemies Act; that 
was in 1798. Not taking necessary action would be abdicating 
perhaps the foremost responsibility of the Federal Government: 
to protect its population from those who would do us harm.
    Let me also discuss, briefly, where I think this is going 
and what kind of a pattern that we are in. We held at least one 
hearing in the last Congress on slavery reparations. We have 
had a President who apologized to an entire continent for 
slavery--for America's act in slavery. And I will point out 
that when we judge our predecessors by contemporary values, we 
always lose something in that contextual analysis.
    When a nation is under attack--well, let me just take it 
back to slavery. When you have a--I think that we deserve a lot 
of credit as a Nation and as a civilization for eradicating 
slavery, and yet we are wallowing in a guilt for these 
generations for sins that were committed by previous 
generations. I think we need to recognize the accurate history 
and do so objectively, but I don't think that we can 
legitimately atone for those mistakes by rewarding the third 
generation of people who perhaps were disenfranchised for a 
time.
    And I think we have to take this into the context of, 
President Roosevelt had intelligence; he acted on that 
intelligence, whether or not it was in good faith. We can't 
really help the people that had their lives altered by that.
    But I would also point out that we are not here talking 
about reparations or compensation for the descendents of those 
who were killed in World War II, that same war where about 
450,000 Americans lost their lives--and in fact, there is a 
missing generation there for those children that were never 
born because their fathers were killed defending the freedom 
that we enjoy. So if we are really serious about compensating 
those who have suffered an injustice, it more goes to those who 
have had their parents lose their lives in these previous wars.
    And I want to add, also, that, you know, this pattern of 
finding another victims group and finding a way to reach into 
the pocket of the American taxpayer and eventually, through 
this process, whether it is at not a formal hearing today, but 
eventually we get to this point where there is a request for 
reparations and a request for an appropriation. This is the 
process, this is the pattern, and I don't think that America 
has enough to be guilty about that we ought to be wallowing in 
self-guilt here today, under the third and fourth generation, 
and that is biblical.
    And if I could just conclude my statement, Madam Chair, I 
would do so in a sentence, and that is that it has been 
reported that about 645,000 slaves were brought into this 
country, and I would say that there is also a reference to 
about 1.25 million Christian slaves who were also enslaved in 
the previous centuries, and I hear no mention of that as well. 
So let us get on with our future lives and stop wallowing in 
this thing that we would propose upon our ancestors that would 
be a request for funding from today's producers.
    I thank you, and I yield back.
    Ms. Lofgren. The gentleman's time is expired. I am going to 
introduce the witnesses and ask unanimous consent that your 
full statements be made part of the official record. And we 
have time for 5 minutes of oral testimony; I am going to be 
strict on the 5 minutes because we have many witnesses today, 
and we want to make sure they all have a chance to be heard.
    So let me first introduce the first panel. We have 
Professor Daniel Masterson, who teaches Latin American history 
at the Naval Academy. He has written extensively on militarism, 
insurgencies, immigration, race relations. He has a number of 
important books to his credit, and we are pleased to have him 
as a witness today.
    We also have Grace Shimizu, who is the director of the 
Japanese Peruvian Oral History Project and the coordinator for 
the Campaign for Justice: Redress Now for Japanese Latin 
Americans. She is also the project director of a groundbreaking 
traveling exhibit, and we are very pleased that she is here all 
the way from California to be a witness for us today.
    And finally, I would like to introduce Libia Dideko Mauki 
Yamamoto. Ms. Yamamoto was born is Chiclayo, Peru, at the age 
of seven was interned in the Crystal City Internment Camp in 
Texas. After release from camp, she and her family resettled in 
California. She is the founding member of the Japanese Peruvian 
Oral History Project. She is trilingual, in English, Spanish, 
and Japanese, and lectures often about her internment 
experiences. And she is a resident of Richmond, California, and 
we are grateful to her as well, coming all the way from 
California.
    We have this little machine, and when the light turns 
yellow it means you only have 1 minute left; and when the light 
turns red it means your 5 minutes are up and I will ask you to 
cede the testimony to the next witness.
    If we could begin with you, Professor Masterson?
    Could you turn on your microphone?

 TESTIMONY OF DANIEL M. MASTERSON, PROFESSOR OF LATIN AMERICAN 
                  HISTORY, U.S. NAVAL ACADEMY

    Mr. Masterson. Okay. Thank you all for inviting me and 
giving me an opportunity to speak on this issue. I have studied 
and written on this for about 20 years, but my books don't 
exactly reach bestseller proportions, so I think it needs a 
wider audience, to say the least.
    I just want to do three things today as quickly as I can: 
to talk about the Japanese relocation and internment issue, to 
speak about the nature about the Japanese in Latin America, and 
also to look at the question of whether or not a commission 
should go ahead and address this issue with wider study.
    The internment issue, I think, is only known to a small 
number of scholars and the participants themselves, despite the 
fact that there are a number of books written on this topic. We 
obviously had a situation between 1942 and 1945 in Latin 
America where the United States felt compelled to, number one--
this was one option--to have the Latin American governments 
intern their own Japanese, which they did. This was the case in 
Mexico; this was the case in Brazil; this was the case in 
Paraguay. Those nations chose not to participate in the 
internment and relocation process.
    Twenty-two hundred and sixty or so chose--the 
representative governments chose to send 2,260 to the United 
States in the relocation process, which was primarily designed 
not so much for internal security issues, but for a prisoner 
exchange to Japan. Ultimately, about 1,400 of these ended up in 
Japan in a prisoner exchange, primarily because they entered 
the United States as stateless citizens; their passports were 
taken from them upon their departure from Peru, in most cases, 
where there were about 1,800 Peruvian nationals who were 
essentially sent over.
    What this does, basically, is establish a precedent for 
prisoner exchange, which, in many instances, thefts the 
credibility of international law, at this point. Many of these 
people were selected not through a systematic process of 
identification and counter-espionage activity, but rather 
through dragnets in Lima, Peru, for example, where the Lima 
police, in most cases, simply selected an individual or someone 
who was easily available.
    The third secretary of the Peruvian embassy at this point, 
a man named John Emerson, looked upon this situation very 
carefully from 1943 through 1945 and said it was a very 
haphazard process, one in which--it did not involve a 
systematic detaining of Latin American Japanese who were 
primarily perceived of as a difficult--I should say a 
possibility for espionage threats. These people eventually 
ended up in war-torn Japan without recourse for the citizenship 
status, because Peru would not accept them back when the United 
States chose to deport them between 1943 and 1945--actually 
through 1947.
    Now, were they guilty of espionage? This is a question 
which has to be addressed, perhaps in the pursuit of this 
commission, but I have looked--and a number of other people 
have looked--at Federal Bureau of Investigation files available 
at the Franklin Roosevelt Library in New York, and they 
concluded, as did John Emerson, that there was no evidence of 
any espionage whatsoever within the realm of the Peruvian 
Japanese or the Japanese Peruvians during World War II. The FBI 
was given responsibility for counter-espionage activities in 
Latin America, and they pursued this quite diligently in Peru, 
quite diligently in Panama, where the Panamanians in Japan were 
interned, and their files are available for further perusal, 
which would be, I think, a very good possibility for some 
future commission to justify this point.
    Who were these Japanese Peruvians? Who were these Japanese 
Latin Americans? They came from the southern prefectures of 
Japan beginning in 1899; they went to Mexico, where they were 
cotton farmers; they went to Mexico and northern Mexico to work 
on the railroads; they worked as miners; in Brazil they worked 
as coffee pickers. They ended up, in many cases, in Brazil upon 
established colonies in the interior, in San Paulo state, and 
became some of the most productive agriculturalists in all of 
Brazil.
    In Peru, they came as sugarcane cutters, where almost 
immediately they found the conditions on the sugarcane fields 
to be so abhorrent that they fled and ended up in large numbers 
in Lima, Peru. About 85 percent of all Japanese Peruvians today 
live in Lima. There, they established very profitable 
commercial enterprises and, in fact, became the commercial 
backbone of many Lima businesses.
    Small numbers of these business memcores were basically 
just trying to survive, and I think I would be instrumental to 
point out one of them. He was the father of Alberto Fujimori, 
who was----
    Ms. Lofgren. Professor, we are going to ask you to wrap up 
because your time is expired.
    Mr. Masterson. Okay. I am wrapping up.
    He was the father of Alberto Fujimori, who later became 
president of Peru. He, like many thousands of Japanese 
Peruvians, had his property seized during World War II.
    [The prepared statement of Mr. Masterson follows:]
               Prepared Statement of Daniel M. Masterson
    It is well known that the great trauma of World War II caused 
untold suffering for tens of millions of people throughout the world. 
Nearly forgotten in the context of this enormous tragedy is the fate of 
more than two thousand Japanese Latin Americans. Their war time 
experience in many ways mirrors that of the 120,000 people of Japanese 
heritage in the United States who were interned for most of the 
duration of the War in camps throughout the Western United States. But 
in important ways these Japanese Latin Americas were even more 
vulnerable and their circumstances even more devastating than their 
U.S. counterparts. These Japanese residents of eight different Latin 
American nations, were arrested often without charges, briefly detained 
and then deported to the United States for internment in camps in the 
Southwest. Most significantly, before entering the United States these 
deportees were compelled to turn over their passports to U.S. 
officials. They thus entered the United States as ``illegal aliens' 
making them subject to deportation once their internment in the U.S 
came to an end. When the vast majority of their former Latin American 
nations refused to allow them to return after the War, these detainees 
became ``stateless'' and unwilling refugees who were powerless to 
prevent their deportation to devastated post war Japan. Over the past 
two decades a handful of historians, journalists and activists have 
attempted to shed light on the story of these individuals whom one 
historian called ``Pawns in a Triangle of Hate.'' This committee 
hearing represents a very important effort to further U.S. government 
awareness of misguided U.S. policy during the World War II years.
                        japanese latin americans
    Who were these Japanese Latin Americans, why did they emigrate, and 
what prompted some Latin American governments to willing cooperate in 
their deportation to the U.S. and not others? The first Japanese 
emigrants arrived in Mexico and Peru in the late 1890's. Within a 
decade thousands more would settle in Brazil, which would become home 
to nearly 200,000 Japanese-Brazilians by the beginning of World War II. 
These emigrants came mainly from the poorest southern prefectures of 
Japan and the Ryukyu islands, mainly Okinawa. Seeking relief from 
increasing agrarian and working class unrest, the Japanese government 
saw emigration as a ``safety valve'' that might relieve some of the 
suffering caused by the nation's rapid modernization during the Meiji 
era.\1\
---------------------------------------------------------------------------
    \1\ Taoke Endoh, Exporting Japan: The Politics of Emigration in 
Latin America (Urbana: University of Illinois Press, 2009).
---------------------------------------------------------------------------
    In Mexico these Japanese emigrants settled in Baja California and 
successfully raised cotton, They also worked in the mines and on the 
railroads of the Northern states of Coahuila, Sonora, and Durango. In 
Peru, mostly male Japanese emigrants were enlisted as contract laborers 
to work in coastal sugar and cotton plantations. Terrible working 
conditions on these coastal estates drove many of them to flee and 
settle in Lima where they turned to small scale commerce and the 
building trades with good success. By World War II, at least 75 per 
cent of Peru's Japanese lived in the Lima metropolitan area where they 
proved vulnerable to government agents once the deportation process 
began.
    Brazil received the largest number of Japan emigrants because it 
needed laborers for its huge coffee estates and because large tracts of 
land were available in its Southern states of Rio de Janeiro and Sao 
Paulo. Japan heavily subsidized the establishment of Japanese colonies 
in Brazil in the hope that it would become the principal haven for its 
overseas Japanese. This policy succeeded as Brazil today has more 
people of Japanese descent (1.2 million) than any nation outside of 
Japan.
    Most Japanese who migrated to Latin America did so with a sojourner 
mentality. That is, they firmly intended to return to Japan after their 
hard earned savings allowed them to live comfortably ``near the bones 
of their ancestors.'' But this hope was rarely realized. Instead, the 
vast majority of the Japanese established tightly knit and comforting 
communities within the Latin American nations. Japanese culture 
flourished within these communities, Japanese schools taught the 
Japanese language and Japanese language newspapers kept the news of 
Japan and these communities available to their readers. The vitality of 
the Japanese communities cultural bonds was both a great strength, and 
a telling weakness. The insularity of the Japanese in Latin America 
caused them to be accused of being unwilling to assimilate. Of course, 
this same accusation could have been leveled against other ethnic 
groups, but it rarely was. In fact, Peru's most prominent Japanese, 
Alberto Fujimori took pride in being more Peruvian than Japanese. He 
was educated in non Japanese Schools in Peru, France and Milwaukee and 
distanced himself from the Japanese community when he ran for president 
in 1990.
    The 1930's saw Latin America's Japanese face increasing resentment 
brought on by their relative economic success in the midst of the 
Depression as well as Japan's increasing militarism. Prior to World War 
II, for example, Japanese-Brazilian farmers were eight times as 
productive as their Brazilian counterparts.\2\ Still, the nations with 
the two largest Japanese populations, Brazil and Peru enacted 
legislation that effectively ended Japanese emigration to their 
countries. Brazil's president Getulio Vargas issued decrees that 
severely restricted the Japanese communities' activities. Most 
importantly, Japanese-Brazilian schools were closed and the use 
Japanese language was prohibited in public. In May 1940, the worst 
anti-Japanese riots to occur in the Western Hemisphere flared in the 
capital's Japanese neighborhoods and in the agricultural centers of 
Chancay and Huaral. Fueled by false rumors Japanese military 
activities, two days of nearly unrestrained destruction and looting of 
Japanese properties ruined the livelihoods of many Japanese-Peruvians. 
Nearly every Japanese-Peruvian business was either completely destroyed 
or badly damaged. In Lima police stood by while the rioters wrought 
their havoc. The capital's major newspapers choose not to report on the 
riots.\3\
---------------------------------------------------------------------------
    \2\ Daniel M. Masterson, with Sayaka Funada Classen, The Japanese 
in Latin America (Urbana, Illinois: 2003), 131
    \3\ Ibid, 156-157.
---------------------------------------------------------------------------
                  arrest, deportation and internment:
    Washington had plans for the internment of Japanese-Latin Americas 
a few months before Pearl Harbor. These plans called for the round up 
of Panama small group of four hundred Japanese and relocate them on the 
isthmus. The protection of the Canal was indeed the primary reason 
given for the interment of Japanese Latin Americans on the west coast 
of South America. The other primary reason: the exchange of Japanese-
Latin Americans for United States citizens caught behind Japanese 
military lines seems to have been suggested by the Chairman of the 
Joint Chiefs of Staff, George Marshall and
    Secretary of State Cordell Hull in late 1942. The U.S. citizens in 
question numbered 7,000 civilians captured in China, the Philippines, 
Guam and Wake Island.\4\ Hull advocated the deportation and internment 
of Japanese Latin Americans for the specific
---------------------------------------------------------------------------
    \4\ George Marshall to Commanding General Caribbean Defense 
Command, 11 December 1942, National Archives, College Park, Md. Records 
of World War II, Army file AG 014.311 as quoted in Thomas Connell, 
America's Japanese Hostages: The World War II Plans for a Japanese 
Latin America (Westport, CT. 2002), 152, and Connell, Japanese 
Hostages, 100-101.
---------------------------------------------------------------------------
                          plans for internment
    purposes of exchange. The Secretary of State seemed indifferent to 
the fact that many of these potential deportees were second generation 
Nisei and had never seen Japan. Hull at one point advocated the removal 
of all Japanese from Latin America for security purposes, not seeming 
to be aware of the enormous logistical, diplomatic or legal 
implications of this policy. Relocating Brazil 200,000 Japanese was 
never even a remote policy, even if the that country's leadership had 
that intention. Since the Japanese were Brazil's most productive 
farmers, that hardly seemed possible. President Franklin Roosevelt even 
weighed in on the issue of internment. Commenting on the supposedly 
delightful climate of the Galapagos Island, F.D.R. suggested that the 
Japanese from the west coast of South America could be interned on one 
or more of the island off Ecuador.\5\
---------------------------------------------------------------------------
    \5\ Connell, America's Japanese Hostages, 5
---------------------------------------------------------------------------
    Not all Latin American nations allowed their Japanese residents to 
be deported to the United States for reasons of security or possible 
exchange. Mexico, seeking to maintain a nationalist and independent 
status relocated its Japanese from Baja California and it northern 
states to centers in the Federal District in central Mexico. Much of 
their property was lost as a result but most were able to rebuild their 
lives in Mexico City after the War. Brazil confined its Japanese to 
their remote agricultural cooperatives in the states of Sao Paulo and 
Rio de Janeiro during the war but did not technically intern them. Very 
importantly, families were allowed to remain intact and the property of 
the Japanese-Brazilians remained largely intact. After the War, the 
large Japanese-Brazilian community thrived.
                      the internees and their fate
    More than 3 of 4 of the more than 2,000 deportees from Latin 
American from 1942 to 1945 were from Peru. The government of President 
Manuel Prado saw the expulsion of the Japanese from his nation as 
benefit to his political popularity. He pursued this process of 
deportation with vigor. Additionally, some in Peru wanted to take 
advantage of the dilemma of the Japanese-Peruvians for their own 
financial benefit. U.S. officials were fully aware of this. One U.S. 
intelligence official noted in late 1941 that ``for every Japanese 
owner of a hardware or price goods store or barber shop, there are at 
least three (Peruvian) candidates (waiting) to take over their 
business.'' \6\
---------------------------------------------------------------------------
    \6\ Office of Strategic Services Memo, 12294, 20 December 1941, RG 
226, U.S. National Archives.
---------------------------------------------------------------------------
    How were these Japanese Latin America identified for deportation? 
In the case of most Latin American nations, F.B.I. agents assigned to 
intelligence work in Latin America worked with the U.S. Embassy and 
Latin American governments to create ``Black Lists'' of suspect 
Japanese for possible deportation. Since none of the F.B.I. agents in 
Peru, for example, spoke or read Japanese, these blacklists were 
largely drawn from membership lists of prominent Japanese associations. 
Further, when many of these suspects went into hiding or bribed 
Peruvian officials, Prado's police in exasperation arrested the 
majority of detainees haphazardly to fulfill arrest quotas.
    These injustices were compounded when the deportees reached their 
debarkation location at New Orleans. Their passports were taken from 
them and never returned. They were thus declared illegal enemy aliens 
and were subject to deportation when their confinement in the United 
States came to an end. Taken from their families, these early internees 
were without a family and without a country. A good number of these 
detainees were reunited with their families when their wives and 
children chose to join them in confinement. The vast majority of these 
nearly 2,000 Japanese-Peruvian never returned to Peru. The Peruvian 
government refused to readmit all but seventy-nine in a policy that 
remained firm through the 1950's. Peru has not issued a formal apology 
for its war time deportation, but in the mid 1960's the government of 
Fernando Belaunde Terry donated a sector of land in central Lima for 
the construction of the Japanese Cultural Center. Of the 2,200 Latin 
American deportees only about 15 per cent were able to remain in the 
United States. The case of the ``stateless'' internees was taken up by 
the lawyer Wayne Collins who successfully argued for their continued 
residency in the U.S. The remainder of these unfortunate Japanese Latin 
Americans were deported to a Japan that lay in ruins. It was a country 
most had never seen and only existed in the images wrought by their 
parents or in their schoolbooks. The reality of the destruction and 
death they encountered was a great trauma. Nearly unbelievably, some of 
these Japanese Latin Americans were ``relocated'' to Hiroshima!
    The narrative of these Japanese Latin American during World War II 
has been told in books, articles and movies by talented filmmakers. But 
it is narrative that is still not widely known. Almost every U.S. 
citizens knows the story of the internment of our own 120,000 Japanese 
American. Congress needs to encourage the discussion of U.S. policy 
toward the Latin American Japanese during World War II. U.S. archivists 
have diligently collected and declassified the documentation in 
thousands of pages in material in the Special War Problems Division 
files of the Department of State. Our full understanding of this 
injustice in the past, may help the prevention of this type of policy 
in the future.
                               __________

    Ms. Lofgren. Thank you very much, Professor.
    We are now going to turn to Ms. Shimizu.

 TESTIMONY OF GRACE SHIMIZU, DIRECTOR, JAPANESE PERUVIAN ORAL 
                    HISTORY PROJECT (JPOHP)

    Ms. Shimizu. My father was born in 1906 in Hiroshima, Japan 
and immigrated to Peru when he was 18 years old to work with 
his brother in a family business. During World War II, our 
family charcoal business was put on La Lista Negra, the 
blacklist of so-called potentially dangerous enemy aliens, 
which affected successful businesses and individuals, often 
with no connection to the Axis powers, but who were community 
leaders like journalists, teachers, business owners, priests, 
or officers of prefectural clubs or cultural organizations. My 
family members and others on this list were never charged with 
a crime; there were no search warrants issued, no hearings 
held.
    When U.S. transport ships came into the harbor of Callao, 
some men on the blacklist went into hiding, my uncle included. 
The first time the Peruvian authorities came looking for my 
uncle, who headed our family business, they took my cousin 
instead. My cousin was interned in the U.S. and used in the 
second prisoner exchange.
    In 1944, when my father was 38 years old, the authorities 
deported him to a U.S. military camp in the Panama Canal Zone 
for detention and hard labor, which was in violation of the 
Geneva Convention. My father never shared his experience in the 
Panama camp, but we do have the statement of another Japanese 
Peruvian who recalled being put to work clearing the jungle 
around the camp.
    One humid day the internees, many of whom were elderly, 
were told to dig a pit. He thought he was digging his own 
grave. When they were told to fill the pit with buckets of 
human waste from the guards' latrines, then the older men were 
so tired that they could not run fast enough to please the 
guards, they were poked and shoved by guards with bayonets.
    My father was detained in the Panama camp for several 
months. When the next U.S. transport arrived, the prisoners 
included his first wife, his brother, and his brother's wife 
and children. They were taken to the U.S. for indefinite 
internment at Crystal City, Texas for the purpose of prisoner 
exchange. My father's wife died in that camp due to the trauma 
of the imprisonment and lack of adequate medical care.
    While interned, my father also learned that seven other 
members of our family who remained in Peru had been killed, and 
circumstances surrounding their murders were never solved.
    At the end of the war, my uncle and his family were 
deported to Japan and dumped off to find their way to the home 
of my grandmother in Hiroshima. My father was released on 
parole from camp under the sponsorship of Japanese American 
relatives living in northern California. His intention was to 
return to his home, business, and surviving relatives in Peru, 
but internees were not allowed reentry by the Peruvian 
government, initially.
    He eventually remarried and started a family with my mother 
in Berkeley, California. In the 1950's, with changes in the 
immigration laws, he was allowed to change his status from 
illegal alien to legal permanent resident. I have come to 
understand the significance of my father's wartime experience 
through the work of the Japanese Peruvian Oral History Project. 
We are learning that our families' wartime experiences were 
part of a larger Latin American program whereby the U.S. 
government went outside its borders to 13 Latin American 
countries and seized 2,264 men, women, and children of Japanese 
ancestry, both citizen and immigrant residents of those 
country, forcibly deported them to the U.S. internment camps 
without legal extradition, without due process, without 
charges, and deprived of legal counsel.
    We are also learning that German and Italian communities in 
the U.S. and Latin America were also swept up in this turmoil. 
In total, over 31,000 so-called enemy aliens of German, 
Italian, and Japanese ancestry in the U.S. and from Latin 
America were apprehended and detained, and thousands interned 
in camps, which were different from the 10 War Relocation 
Authority camps where Japanese American were incarcerated.
    We are also learning more about the prisoner exchange 
program, where over 4,800 men, women, and children were 
forcibly thrust into the warzones of the Far East and Europe. 
Of these, over 2,800 were of Japanese ancestry, about half of 
whom were Japanese Latin Americans.
    What is being uncovered is a shocking picture of how the 
U.S. government initiated and orchestrated a program of massive 
civil rights violations, crimes against humanity, and war 
crimes spanning two continents before, during, and after World 
War II. U.S. government policies and actions and what our 
former Japanese Latin American and other enemy alien internees 
endured during World War II warrants deeper investigation.
    We are here today to urge your support for passage of H.R. 
42. Thank you.
    [The prepared statement of Ms. Shimizu follows:]
                  Prepared Statement of Grace Shimizu
    My name is Grace Shimizu. I am the director of the Japanese 
Peruvian Oral History Project and the daughter of a Japanese internee 
from Peru. On behalf of the former Japanese Latin American internees 
and our families, I would like to express our appreciation to 
Chairperson Zoe Lofgren and members of the House Judiciary Subcommittee 
on Immigration, Citizenship, Refugees, Border Security and 
International Law. It is so heartening to be able to share our wartime 
experiences. This hearing is very significant to us because our 
experiences have never been part of the mainstream historical narrative 
of this country, nor have our experiences been included as part of our 
own community's narratives--both Japanese American and Latino 
communities. Our story is a hidden part of our community history and a 
suppressed part of US wartime history.
    My father was born in 1906 in Hiroshima, Japan and immigrated to 
Peru when he was 18 years old. He joined his brother who had arrived 
earlier as a contract laborer and begun to develop a family business. 
During World War II, our family charcoal business was put on ``La Lista 
Negra,'' the blacklist, the informal name for what the US called ``The 
Proclaimed List of Certain Blocked Nationals.'' This list of 
``potentially dangerous enemy aliens'' affected businesses and 
individuals, often with no connection to the Axis powers, like 
journalists, teachers, business owners, priests, or anyone who held a 
position in the many prefecture clubs or cultural organizations. My 
family members and others on this list were never charged with a crime. 
There were no search warrants issued, no hearings held.
    When the US transport ships would come into the harbor of Callao, 
many on the blacklist would go into hiding, my uncle included. The 
first time the Peruvian authorities came looking for my uncle who 
headed our family business, they took my cousin instead. My cousin was 
interned in the US and used in the second prisoner exchange. In 1944, 
when my father was 38 years old, he was taken by the authorities. He 
was forcibly deported from his home in Peru to a US military camp in 
the Panama Canal Zone for detention and put to hard labor, which was in 
violation of the Geneva Convention. My father never shared his 
experience in the Panama camp but we do have an interview of another 
Japanese Peruvian who recalled being put to work clearing the jungle 
around the camp. One humid day, the internees, many of whom were 
elderly, were told to dig a pit. He thought that he was digging his own 
grave. Then they were told to fill the pit with buckets of human waste 
from the guards' latrines. When the older men were so tired that they 
could not run fast enough to please the guards, they were poked and 
shoved by the guards with bayonets. After three months at hard labor, 
the young man was taken to the US for internment.
    My father was detained in the Panama camp for several months. When 
the next US transport arrived, the prisoners included his first wife, 
his brother and his brother's wife and children. They were taken to the 
US for indefinite internment at Crystal City, Texas for the purpose of 
hostage exchange. During internment, my father's wife died in that 
Texas camp due to the trauma of imprisonment and lack of adequate 
medical care. My father also learned that seven other members of our 
family who remained in Peru had been killed and circumstances 
surrounding their murders were never resolved.
    At the end of the war, my uncle and his family were deported to 
Japan and dumped off to find their way to the home of my grandmother in 
Hiroshima. My father was released on parole from camp under the 
sponsorship of Japanese American relatives living in northern 
California. His intention was to return to his home, business and 
surviving relatives in Peru, but he along with other Japanese Peruvians 
were initially not allowed reentry by the Peruvian government. He 
eventually remarried and started a family with my mother in Berkeley, 
California. In the 1950s, with changes in the immigration laws, he was 
allowed to change his status from ``illegal alien'' to legal permanent 
resident. Despite his decision to live the rest of his life in the US, 
he never became a US citizen. Part of his thinking was, if the US were 
ever to violate the rights of persons of Japanese ancestry again, he 
and his family would not become stateless and would be able to find 
refuge in the country of his birth.
    I didn't understand the significance of my father's wartime 
experience until I began to work with the Japanese Peruvian Oral 
History Project, which was established in 1991 by six families in the 
SF Bay Area. Like other Japanese Americans of my generation born in the 
US, I was lucky to have read about the Japanese American incarceration 
in a US history book, even if it was just one sentence. And there was 
never mention about the internment of Japanese Peruvians. Also, my 
parents and I, like so many other Japanese Americans and Japanese Latin 
American families at that time, didn't talk much about the war, 
internment or the traumatic impact that experience had on us 
personally, our families and community.
    Through our work in the Japanese Peruvian Oral History Project, we 
are learning how the WWII internment history of Japanese Americans and 
Japanese Latin is integrally linked. We share many similarities with 
Japanese American families, including our immigrant roots. We formed 
community with Japanese Americans while living side by side in 
Department of Justice internment camps and US Army facilities and being 
used as human pawns in hostage exchanges. During the resettlement years 
after the war, Japanese American and Japanese Latin American families 
in the US struggled to reestablish our lives, with many Japanese Latin 
Americans becoming part of Japanese American neighborhoods and marrying 
into Japanese American families.
    Through our work, we are learning that our families' wartime 
experiences were part of a larger Latin American program whereby the US 
government went outside its borders to 13 Latin American countries and 
seized 2264 men, women and children of Japanese ancestry (both citizens 
and immigrant residents), forcibly transported them to US internment 
camps without legal extradition, without due process, without charges 
and deprived of legal counsel.
    We are also learning that such wartime experience of civil and 
human rights violations was not limited to persons of Japanese 
ancestry. German and Italian communities in the US and Latin America 
were also swept up in this turmoil. Following the Japanese military 
attack on Pearl Harbor, over one million immigrants in the German, 
Italian and Japanese American communities in the US became ``enemy 
aliens'' overnight. From about 19 Latin American countries, over 200 
persons of Italian ancestry and over 4,000 persons of German ancestry 
(including 81 Jewish refugees) were seized and deported to the US for 
internment. In total over 31,000 enemy aliens of German, Italian and 
Japanese ancestry in the US and from Latin America were apprehended and 
detained. Many thousands of them were interned for reasons of 
``national security'' in over 50 facilities run by the US Department of 
Justice and the US Army, which were different from the ten War 
Relocation Authority camps where Japanese Americans were incarcerated.
    We are also learning more about the hostage exchange program. In 
time of war, civilians from warring nations should be allowed safe 
passage to their home countries. But what should have been a 
humanitarian program became a program of human rights violations. Over 
4,800 men, women and children were forcibly deported to war zones of 
the Far East and Europe in the prisoner exchange. These included US 
citizens who were the minor children of permanent resident aliens. For 
persons of German ancestry in the US and from Latin America, there were 
about six separate exchanges with a total of at least 2,000 people. Of 
them, it is unclear how many were German Latin Americans. For persons 
of Japanese ancestry, there were two separate exchanges with over 2,800 
civilians, half of whom were Japanese Latin Americans.
    It is now widely recognized that the incarceration of 110,000 US 
citizens and residents of Japanese ancestry during WWII was one of the 
worst violations of the constitution in our nation's history based on 
wartime hysteria, racial prejudice and failure of political leadership. 
With growing knowledge of the WWII Enemy Alien Program and its Latin 
American component, that mass imprisonment of the Japanese American 
community is now put into a broader international context of 
relocation, internment and forced deportation of persons of Japanese, 
German and Italian ancestry What is being uncovered is a shocking 
picture of how the US government initiated and orchestrated a program 
of massive civil rights violations, crimes against humanity and war 
crimes spanning two continents before, during and after WWII.
    Later review of records of these so-called ``dangerous'' enemy 
aliens shows there was often no specific evidence of subversive 
activities. Rather they lost years of their lives on the basis of 
``potential'' danger. The impact of these violations has been long 
lasting in our communities and has current day significance for our 
democratic institutions and freedoms.
    We, former internees and our families, are here today to register 
our plea with you, members of the House Judiciary Subcommittee on 
Immigration. We ask for your support of HR 42, the Commission on 
Wartime Relocation and Internment of Latin Americans of Japanese 
Descent Act, to investigate the treatment of Japanese Latin Americans 
during WWII.
    In 1980, the Congress authorized a similar fact finding study which 
examined the treatment of Japanese Americans during WWII. During the 
course of that study, information began to be uncovered about the 
treatment of the Japanese Latin Americans. Such information was found 
significant enough to be included in the published Commission report 
and warrants deeper investigation. The Japanese Latin American 
commission bill would extend the initial investigation of the 1980 
Commission.
    We ask your support to get this commission bill passed.
                               __________

    Ms. Lofgren. Thank you very, very much.
    And finally you, Ms. Yamamoto. Thank you so much for being 
with us today.

TESTIMONY OF LIBIA YAMAMOTO, FORMER JAPANESE OF LATIN AMERICAN 
                        DESCENT INTERNEE

    Ms. Yamamoto. My father migrated to Peru in 1914, at the 
age of 20, as a contract laborer from Japan. Through hard work 
and dedication, my father rose from his humble beginnings to 
become a successful businessperson and establish our family as 
one of the many respected in the Peruvian city of Chiclayo and 
a nearby sugar plantation of Hacienda Toman.
    The period during World War II was very confusing for 
everyone in our community as we began to feel the effects of 
the war. Still, I never thought that our family would be 
affected. I was wrong.
    On the night of January 6, 1943, the police came to our 
house in the Hacienda and said to my father, ``Senor Maoki, we 
have to take you by the order of the United States of 
America.'' That night they took him to jail. We did not get any 
explanation; everything happened so suddenly that my father had 
no time to pack any of his things.
    We knew nothing of his situation until the next morning 
when my father was moved to the city jail, and I went with my 
mother to visit my father there. During this time, the mothers 
who were there to see their husbands in jail held their tears 
in and tried to be strong; some were more successful than 
others.
    Then a truck came and our fathers were forced to get on it. 
That truck drove away, and we didn't know where they were 
taking them, why, for how long, or if they would come back. As 
my father and the others waved goodbye, I remember our mothers 
lost their composure and collective weeping erupted into loud 
cries.
    This was an extremely traumatic experience for me at age 
seven. Finally, after an entire month, we received a letter 
from my father in Panama. We were just so happy to hear that he 
was alive. Later, we learned that his passport was confiscated 
and he was interned in a Department of Justice camp in Texas. 
There my father learned that the men from Peru were going to be 
shipped to Japan in a prisoner exchange. My father and the 
others began protesting because they knew this meant indefinite 
separation from their families.
    The so-called solution to this problem was to reunite these 
men with their families in Department of Justice camps. I think 
the U.S. government did not mind this because, in effect, it 
provided more hostages. Still, there were some families who 
were never able to reunite.
    We left Peru from the Port of Callao in July 1943. Boarding 
the ship was horrifying because there were U.S. soldiers on 
board pointing their big guns at us as if we were criminals. 
When we got to New Orleans officials inspected our baggage and 
some families had precious belongings thrown into the water.
    The Peruvians on our ship were among the lucky ones, 
because I later learned from my friend that she and other women 
and children were let off their ship first and marched to a 
warehouse. They were ordered to strip and stand in line naked, 
and then were sprayed with insecticide. I can't imagine the 
humiliation my friend felt having to strip her clothes off in 
front of boys who are our age. How awful this must have been 
for our mothers, whose modesty was violated.
    Despite the physical conditions of the camps, my family was 
glad to be reunited with my father. At the end of the war the 
U.S. government told us to leave the country because we were 
illegal aliens. My sister and her family were deported first to 
Japan. She later wrote to us in camp that many people were 
starving and her family had to pull out weeds from the ground 
just to feed themselves, and her 5-month-old baby died from 
malnutrition.
    When it was my family's turn to leave, my father became 
very ill and our deportation to Japan was canceled. 
Fortunately, we had Japanese American relatives in Berkeley who 
sponsored us out of camp in 1947, and we moved to Berkeley, 
California as parolees.
    I am now 73 years old, and many of my friends my age who 
had similar experiences have passed on. I come here today to 
ask that you support this commission bill to study what 
happened to families like mine. Please help pass this bill 
before it is too late. Thank you.
    [The prepared statement of Ms. Yamamoto follows:]

                  Prepared Statement of Libia Yamamoto
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. Thank you very much, Ms. Yamamoto, for sharing 
your story. I know it is difficult to speak, but it is 
important that your voice be heard, and we do appreciate your 
testimony.
    We now have a time when Members of the panel can pose 
questions to the panel for as long as 5 minutes. Mr. King, 
would you have questions?
    Mr. King. I do, Madam Chair. I thank you, and I would say 
again to the witnesses, thanks for your testimony.
    And Ms. Yamamoto, I understand that it is very difficult to 
relive this after all these years, and I recall you saying that 
you were 7 years old at the time. I appreciate you all coming, 
and there are things that we do to serve our countries and to 
serve humanity that cause us to have to rise above, sometimes, 
the things we might not want to do.
    So I am not going to ask any questions. I will give you a 
little relief in that; maybe you can sigh a little. And I will 
direct the other witnesses, who I think maybe can illuminate 
this a little bit for me, too.
    And I would ask Ms. Shimizu, is it your position that there 
should be an apology by the United States?
    Ms. Shimizu. We are here today to urge that what happened 
to our parents, our families, really be investigated further. 
And through that investigation, as more of the information 
comes out and the background becomes more clear, I think our 
faith is put in the commissioners to make the appropriate 
recommendations.
    Mr. King. Then if that investigation--if there is full 
acknowledgement, then if that investigation concludes, I think, 
a conclusion that you have drawn, then would you, then, be 
asking for proper redress?
    Ms. Shimizu. Well, I would be looking at what the 
recommendations were, and then at that point, I mean, we would 
be at a better position to respond to that.
    Mr. King. Okay. Thank you, Ms. Shimizu.
    I would ask Professor Masterson, and you mentioned that 
there was very little public knowledge about the Peruvian 
detainees, and I mentioned in my testimony a book--I have the 
copies of it--by David Lowman, called ``Magic.'' Are you 
familiar with it?
    Mr. Masterson. Well, there is three books on this topic--at 
least three--and two more that I have written that deal with 
it. But what we have to be aware of is that the scholarly 
community is a relatively small scholarly community, and does 
this information get to the public?
    Mr. King. So excuse me, but are you familiar with this 
copy?
    Mr. Masterson. Yes, I have heard of it, yes.
    Mr. King. Thank you. And have you had an opportunity to 
read it?
    Mr. Masterson. No, I haven't.
    Mr. King. Okay. I would encourage you to do that, because 
to have a balance in the history that you are talking about, I 
think it is important for you to understand the other side of 
this. And I would just comment that as I listened to your 
testimony, one thing stood out to me, that the Japanese workers 
fled from fields in Peru, and, you know, I might have 
characterized it that they migrated to better opportunities; 
there were a lot of bad circumstances during those times.
    And then what I mentioned in my testimony about the 
historical chronology of the Christian slaves--1.25 million, 
which is about twice as many Christian slaves as there were 
African Americans brought here under slavery, at least by some 
accounts--is that is a piece of history that you have had an 
opportunity to study?
    Mr. Masterson. Of course. But you are looking at two 
different situations.
    Mr. King. Sure I am.
    Mr. Masterson. You really are. And what you have, of 
course, is a situation in Peru where individuals are taken from 
their individual environments, many of whom have no 
justification whatsoever with regard to association with 
espionage, and in fact, you could argue that it wasn't directly 
related to the security of the United States; it was more right 
directly related to the welfare of American citizens who were 
behind American lines, and the exchange was being done for 
them----
    Mr. King [continuing]. My clock is ticking. I want to be 
respectful, but--and I think that that is true, they are 
different circumstances, and I would go--I would ask it this 
way: This was a global war----
    Mr. Masterson. Yes.
    Mr. King [continuing]. It was a world war, and there were 
political entities for every nation state, and there were sub-
entities within the nation states, and each of them are 
operating for national survival as well as doing a calculus off 
the intelligence that they had at the time.
    And so we had internments that went on around the world, 
and there were some horrible things that took place, and I 
would ask unanimous consent to introduce this book, called 
``Last Man Out.'' It is about the internment also of some 
American prisoners in the Philippines, and I think it is 
important to add to this scholarship as well.
    Mr. Masterson. May I respond to that?
    I would then just----
    Mr. King. Professor Masterson, you have done a thorough 
study of this, and in the time we have left I would just offer 
back to you to conclude your statement so--respectful of your 
testimony.
    Mr. Masterson. There is a parallel to this, and it is that 
many of the Latin American governments who were involved in 
counter-insurgency wars during the 1970's and 1980's, where 
substantial violations of human rights occurred, have created--
reconciliation commissions. Argentina has done one, Peru has 
done one, and that is designed to do exactly what we are 
talking about today: rectify a situation, which needs to be 
done, with regards to the----
    Ms. Lofgren [continuing]. The gentleman's time has expired. 
I am going to ask, since we have three panels, that we go to 
see if Mr. Lungren has questions.
    Mr. King. Madam Chair, could I just ask unanimous consent 
that I may just pose a brief yes or no question to the witness?
    I thank you, Madam Chair, and--do you support or oppose, 
then, reparations?
    Mr. Masterson. I am of the opinion that the reparations 
issue should be resolved by a commission which we are asking to 
be formed. We are not prejudging any of this until the 
commission does so.
    Mr. King. Thank you.
    Thank you, Madam Chair.
    Ms. Lofgren. Ms. Sanchez has no questions.
    Mr. Lungren, do you have questions, or can we move to the 
next panel?
    Mr. Lungren. Thank you very much.
    Ms. Lofgren. Then we will thank you, witnesses, for being 
here and ask the second panel to come forward.
    As the second panel is coming forward, I would like to 
introduce them. First, we have John Christgau. Mr. Christgau is 
the author of eight nonfiction books, including ``Enemies: 
World War II Alien Internment,'' the first book published on 
the subject. For the past 8 years, he has been a member of the 
Enemy Alien Files Consortium, creators of the photo exhibit, 
the ``Enemy Alien Files: Hidden Stories of World War II.''
    I am also pleased to introduce Karen Ebel. Ms. Ebel is the 
daughter of a recently deceased German American World War II 
internee. She is president and a founding member of the German 
American Internee Coalition, which was created to educate the 
public about and advocate ethnic German American and Latin 
American internees and their families. She is also a member of 
the multiethnic Enemy Alien Files Consortium, representing the 
German American community.
    Next I would like to introduce Heidi Gurcke Donald. Ms. 
Donald and six members of her family were deported from Costa 
Rica for internment in the United States during World War II. A 
founding member of the German American Internee Coalition, she 
serves on their board and writes for their Web site. She is the 
author of, ``We Were Not the Enemy,'' a book about her family's 
World War II experiences.
    And finally, I would like to introduce Dr. John Fonte. Dr. 
Fonte joined the Hudson Institute in March 1999 as a senior 
fellow and director of the Center for American Common Culture. 
He has been a visiting scholar at the American Enterprise 
Institute, where he directed the committee to review national 
standards under the chairmanship of Lynne Cheney. He also 
served as a senior researcher at the U.S. Department of 
Education and a program administrator at the National Endowment 
for the Humanities.
    As noted with the first panel, your full written statements 
will be made part of the official record. We would ask that 
your oral testimony consume 5 minutes. When you have 1 minute 
left the yellow light will go on, and we are going to be strict 
about the timeframe because we have still a third panel after 
you. We want to hear everyone.
    So if you would begin, Mr. Christgau?
    If you could turn on your microphone, thank you.

            TESTIMONY OF JOHN CHRISTGAU, AUTHOR OF 
           ``ENEMIES: WORLD WAR II ALIEN INTERNMENT''

    Mr. Christgau. Thank you, Madam Chairwoman.
    I appreciate this opportunity to talk about a piece of 
World War II history that has been largely ignored. At 
nightfall on December 10, 1941, just 3 days after the Japanese 
attack on Pearl Harbor, an unusual thunderstorm struck southern 
California. The deep booming thunder sounded like an enemy 
bombardment, and jittery citizens of Los Angeles and San Diego 
feared they were under attack.
    An immediate lights out order was issued from Bakersfield 
to San Diego, and the coast went dark. Los Angeles residents 
shot out streetlights in the frenzy to black out the city. 
Hospitals were swamped with calls for ambulances to cover 
traffic accidents involving panicked drivers.
    That panic did not disappear, especially from the west 
coast, and in the weeks after, long-held ethnic and racial 
prejudices aggravated by the wartime panic led to the 
internment of over 30,000 so-called enemy aliens of German, 
Italian, and Japanese nationality. The arrests were done under 
the provisions of the Alien Enemies Act, which says that 
whenever war is threatened or declared, all citizens of the 
hostile nation who shall be within the United States shall be 
liable to be apprehended, arrested, detained, and removed as 
enemy aliens.
    For months prior to the start of World War II, the FBI had 
been investigating so-called enemy aliens. The FBI sent its 
investigative reports to the Special Defense Unit of the 
Justice Department. That unit created what was called a 
custodial detention index, or ABC lists, which classified the 
aliens with respect to how dangerous the government considered 
them.
    Aliens on the A list were considered the most dangerous and 
were subject to immediate arrest and detention in case of war. 
Those lists were based on hearsay gathered mainly from 
confidential informants. In San Francisco, a Jewish immigrant 
named Eddie Friede, who had narrowly escaped death in a 
concentration camp in Germany, was arrested, detained, and then 
interned in North Dakota. In a letter to Eleanor Roosevelt he 
pleaded, ``Please see what you can do to get me released from 
internment.''
    Eventually, wartime Attorney General Francis Biddle 
recognized the unreliability of the lists and wrote, ``It is 
clear to me that this ABC classification system is inherently 
unreliable. It should not be used.'' Still, eight internment 
camps for enemy aliens were established in Texas, North Dakota, 
New Mexico, and Idaho. In addition to those eight camps, there 
were dozens of other sites, from hastily constructed detention 
centers to compounds run by the Army.
    Those combined facilities detained and interned a total of 
31,285 enemy aliens and their families between 1941 and 1948. 
Approximately 16,000 were Japanese; nearly 11,000 were German; 
and 3,000 were Italian.
    Beyond those who were interned, tens of thousands more, 
mainly Japanese but also Italians in large numbers and some 
Germans were forced to evacuate their homes in critical 
military zones on the east and west coast and relocate their 
families. Once the aliens and their families were detained or 
interned, they were given a brief hearing before an alien enemy 
hearing board to determine their guilt or their innocence. The 
hearings lasted from 5 to 15 minutes, and there was no 
opportunity for the internees to learn the FBI's charges 
against them.
    So why has so little historical attention been paid to the 
World War II Alien Enemy Control Program, which affected so 
many thousands of people from German, Italian, and Japanese 
communities? Perhaps the answer lies in something one German 
internee chose to call ``Gitterkrankheit,'' the fence sickness. 
After you have been behind barbed wire for months and years, 
the internee explained, a part of you begins to feel like a 
criminal even if you have done nothing wrong. When you finally 
get out, he said, you would rather not talk about the past.
    Thank you.
    [The prepared statement of Mr. Christgau follows:]
                  Prepared Statement of John Christgau
    The United States is a nation of immigrants who were drawn here by 
economic opportunity and the promises of democracy. The fragility of 
immigrants' rights in times of war and economic stress is a global 
concern. An understanding of the history of the WWII Alien Enemy 
Control Program is important to the creation of effective national 
security policy
    Italian and German immigrants began arriving in the U.S. in large 
numbers in the 19th century, with influx to the West beginning during 
the 1850s Gold Rush. Japanese immigration began in 1868 to Hawaii for 
plantation labor. Later, many went on to the U.S. mainland, mostly 
California. By 1940, Italians constituted the largest foreign-born 
group in the U.S., with Germans as the second largest.
    In 1936, the Federal Bureau of Investigation (FBI) started 
compiling lists of so-called ``dangerous persons.'' The lists included 
prominent business, cultural, and religious leaders in the German, 
Italian and Japanese communities. Officially known as the ``Custodial 
Detention Index,'' the list identified those ``potentially dangerous'' 
persons who would be arrested if the U.S. entered the war. The lists 
were the product of rumor, hearsay, gossip, and ethnic and racial 
prejudices gathered from confidential informants. The FBI also 
maintained a ``Suspected Organizations List'' for Italians, Germans, 
and Japanese in the USA.
    In 1940, as fears of German and Japanese aggression escalated, the 
Federal Alien Registration Act (``Smith Act'') required all aliens to 
register, to be fingerprinted, to provide information about their 
membership in organizations, and to report regularly to designated 
authorities. By the spring of 1941, the Justice Department had 
developed procedures to detain and intern aliens and ``potentially 
dangerous persons.''
    At dawn on December 7, 1941, the Japanese military attacked the 
U.S. Naval base at Pearl Harbor, Hawaii. Later that day, Franklin D. 
Roosevelt issued Presidential Proclamation 2525, authorizing FBI agents 
to arrest without warrants any Japanese citizen fourteen years or 
older. On the following day, the President issued similar proclamations 
against German and Italian aliens, and declared war on Japan. 
Overnight, a million immigrants were transformed into ``enemy aliens.''
    The Justice Department's arrest and detention of thousands of 
Germans, Italians, and Japanese was authorized by the Alien Enemies Act 
of 1918--US Code, Title 50, Sections 21-24--which governs war and 
national defense. The Alien Enemies Act is based on the 1798 Alien and 
Sedition Laws, which specified that citizens (age 14 and over) of enemy 
nations can be ``apprehended, restrained, secured and removed'' in case 
of declared war, or actual or threatened invasion by a foreign nation. 
No distinction is made between resident immigrants and aliens in the 
U.S. on a temporary basis.
            restrictions, evacuation, individual exclusions
    By nightfall of December 7, 1941, even before the U.S. formally 
declared war, FBI and other agents of the government descended upon the 
homes and businesses of people they had deemed to be dangerous. Three 
days after Pearl Harbor, 3,846 Germans, Italians, and Japanese had been 
apprehended without being charged with any crimes. Local FBI agents 
especially targeted community and religious leaders, people with 
business, cultural, or political ties to their home country, editors/
publishers of German, Italian, and Japanese language newspapers, and 
teachers at language schools. Homes were searched and possessions 
seized. Many were arrested and jailed without explanation. Their 
families had no idea where or why their loved ones were taken.
    Within a month, all German, Italian, and Japanese aliens residing 
in the U.S. were ordered to be fingerprinted, photographed, and to 
carry photo-bearing ``enemy alien registration cards'' at all times. 
German, Italian, and Japanese immigrants who were designated as enemy 
aliens were ordered to turn over ``contraband'' to local police. 
Prohibited items included all firearms, short-wave radios, cameras, 
knives, and ``signaling devices'' such as flashlights. FBI agents 
searched homes and confiscated personal property, much of which was 
never returned. Ownership of such property could later be grounds for 
internment. The Coast Guard appropriated fishing boats belonging to 
Italian and Japanese fishermen, depriving them of their livelihood. In 
addition, all German, Italian, and Japanese enemy aliens in the Western 
Defense Command were subject to a curfew between 8 p.m. and 6 a.m. 
daily and were not allowed to travel more than five miles from home 
unless a travel permit was applied for and granted. Many aliens' 
assets, such as bank accounts, were frozen, making life even more 
difficult for those affected.
    In January of 1942, the Department of Justice designated restricted 
areas around military sites. By the first week of February, the 
Attorney General had designated 133 prohibited zones for ``any person'' 
around airports, damns, power plants, and military installations. In 
addition, the DOJ set up 88 prohibited zones in California for German, 
Italian, and Japanese enemy aliens. Thousands of enemy aliens living in 
the prohibited zones were ordered to move elsewhere. These individuals 
were given ten days to close their businesses and homes. Most sought 
out family and friends in other states who could help them relocate and 
find jobs. In many cases, the government advised new employers of the 
excludees' circumstances, making resettlement even more difficult. Some 
excludees had been U.S. citizens since the turn of the century and many 
had been in the U.S. for at least twenty years. To keep families 
together, many citizen spouses and children went with the alien head of 
the family, who was often the only breadwinner. Families who stayed 
behind were left without financial support.
    Not all government officials agreed with the mass orders. U.S. 
Attorney General Francis Biddle, head of the Justice Department, issued 
a memo in July 1943 stating that the FBI should only investigate 
activities of persons who may have violated the law, rather than 
classifying persons as to dangerousness. ``The notion that it is 
possible to make a valid determination as to how dangerous a person is 
in the abstract and without reference to time, environment and other 
relevant circumstances is impractical, unwise and dangerous,'' he 
wrote. The ``dangerous person'' label should never again be used to 
justify arrests or internment because it was not based on valid 
evidence.
    Biddle ordered the FBI to abolish its Custodial Detention Index, 
but FBI Director J. Edgar Hoover simply changed the name to ``Security 
Index'' and concealed its existence from the Justice Department. 
Nevertheless, the Justice Department relied on FBI reports to support 
its program of arrests and detention of German, Italian, and Japanese 
nationals in the U.S. and Latin America, which continued throughout the 
war, with some Germans held in U.S. camps until 1949.
    Restrictions on Italian aliens were lifted in October 1942, largely 
because of the impending Congressional elections that November, and 
because of the reported morale problems among military personnel due to 
restrictions on their parents. The support of Italian Americans was 
needed for the impending U.S. invasion of Italy and for the Italian 
population's own revolt against Mussolini. However, the status of 
Italian excludees and internees remained unchanged until late 1943 
after an armistice with Italy.
                        detention and internment
    The arrest and internment of U.S. resident enemy aliens began the 
evening of December 7, 1941. The arrests were done on the basis of the 
Security Defense Unit's ABC lists, which were in tern based largely on 
hearsay information gathered from confidential FBI informants. Among 
those arrested and detained was Eddie Friede, a Jewish immigrant in San 
Francisco who had narrowly escaped death in a concentration camp in 
Germany. Eddie was arrested the evening of December 7, detained, and 
then interned in North Dakota. In a letter to Eleanor Roosevelt, he 
pleaded with her, ``Please, would you see what you can do to get me 
released from internment.''
    By war's end, the number of aliens arrested and detained had 
reached 31,275: 16,849 Japanese, 10,905 Germans, and 3,278 Italians, 
and some 200 Hungarians, Bulgarians and Romanians. Some were U.S. 
citizens. Though not all were formally interned, they were held for 
periods ranging from a few days to several years without ever learning 
the charges against them. After arrest, the aliens were turned over to 
the Immigration and Naturalization Service (INS) for detention. The 
detainees received cursory hearings, in some cases not until after 
months of detention. During the hearings, they were not able to have an 
attorney, question witnesses, or see the evidence against them. The 
hearing boards recommended release, parole, or internment. There were 
eventually eight permanent INS internment camps--in North Dakota, 
Idaho, New Mexico, and Texas--and over fifty additional detention 
centers and internment facilities, from small local jails to Army POW 
camps, that held enemy aliens.
    Detainees' families often did not know where they were for weeks. 
Sometimes both parents were taken and the children were left to fend 
for themselves until relatives or the local government took custody. 
Many women struggled to support their families and, having lost 
everything, sought refuge in a family internment camp. Border Patrol 
agents of the INS operated the DOJ camps, located at migrant worker and 
Civilian Conservation Corps camps, military bases, and prisons. Some 
housed men only, others women only, still others married couples. Camp 
conditions varied widely.
    Many internees were shifted from camp to camp. Italian internees at 
Fort Meade were sent after some months to a similar facility at Fort 
McAlester, Oklahoma. The very first West Coast German, Italian, and 
Japanese internees, arrested in early December 1941, were sent to the 
INS internment camps at Fort Missoula, Montana, and Fort Lincoln, North 
Dakota, before they had hearings. After hearings, they were either 
transferred to army-run internment camps in Texas and Oklahoma, or 
paroled..
    In May of 1943, with captured Axis military personnel coming to the 
United States for imprisonment, the Army asked to be relieved of its 
civilian internees. Thus, all internees were returned to the custody of 
the INS, with Italians returning to Fort Missoula, and most Germans 
sent to Fort Lincoln. Japanese internees were kept mainly at Fort 
Lincoln, Fort Missoula and Santa Fe in New Mexico, until many went to 
War Relocation Authority camps to join their families.
    In addition, nearly 3,000 German and Italian merchant seamen whose 
ships happened to be docked in U.S. or Latin American ports were also 
turned into ``illegal aliens''. Their ships impounded, these sailors 
were sent to internment at Fort Lincoln, North Dakota and Fort 
Missoula, Montana.
      release from camp: hostage exchange and postwar deportation
    When the German government learned that some of its overseas 
citizens had been seized in Latin America and interned in the United 
States, it ordered the seizure of U.S. and Latin American citizens 
living in Europe. Complex negotiations followed, resulting in several 
exchanges of civilian prisoners. From 1942 to 1945, at least 2,000 
persons of German ancestry and at least 37 Italians, including women 
and children, from the U.S. and Latin America were sent to Europe in 
six exchanges across the Atlantic Ocean at the height of the war.
    The U.S. did not want to return any aliens who might aid the Axis 
war effort, and State Department policy was to exchange only harmless 
people of German or Japanese ancestry. Repatriates to Germany signed an 
oath not to perform military service. Some died as civilians, killed by 
Allied bombs, while others were imprisoned under suspicion of being US 
spies.
    Japan also agreed to prisoner exchanges but did not want to accept 
``repatriates'' who did not want to return. There was also difficulty 
in finding ships. Two exchanges occurred in 1942 and 1943 involving 
2,800 persons of Japanese ancestry from the U.S. and Latin America. 
Some deportees were drafted into the military service of Japan and died 
in combat. Others lost their lives in air raids as civilians.
    The Alien Enemy Act only permitted internment for the duration of 
the war. After the European hostilities ended in May 1945, President 
Harry Truman issued Presidential Proclamation 2655 ordering deportation 
of ``dangerous enemy aliens'' who were still interned. Thus, many 
Germans and their U.S. citizen families were involuntarily 
``repatriated'' to war-devastated Germany and left there to fend for 
themselves. Germans who did not want to repatriate remained interned 
and fought desperately for years to avoid being deported. By mid-1948, 
the camps were empty, though some internees remained in custody on 
Ellis Island until 1949. Some had been interned for seven years.
  impact on families, uncovering hidden stories, breaking the silence
    During WWII, the U.S. government assured the public that it was 
protecting national security by publicizing arrests of enemy aliens. 
However, officials made efforts to conceal specific details of the 
Justice Department camps and the hostage exchange program from the 
American public. Guards at the alien internment camps were required to 
sign statements agreeing not to reveal information about the camps. The 
internees themselves were also warned not to talk. Some have reported 
signing oaths of silence with which they complied all their lives, 
fearing the FBI would again come to their doors.
    For half a century, internees kept their stories hidden. Many felt 
shame and fear long after the war and refused to discuss their 
experiences, even with their families. Even today, after more than six 
decades, many internees are reluctant to talk to researchers or allow 
their real names to be used in books and articles.
    Yet the emotional toll from their wartime trauma was extensive. 
After being labeled as enemy aliens and incarcerated, internees 
conducted daily life behind barbed-wire fences, klieg lights, and 
watchtowers patrolled by armed guards with dogs, experiencing all the 
problems associated with imprisonment. Mail was restricted and heavily 
censored, with no drawings, erasures or references to movements of 
internees or to the enemy nation allowed. For those in camps far from 
home, visitors were rare. Most of the internees were men separated from 
their families and loved ones. Army restrictions for internees tended 
to be even more severe than those imposed by the INS. Internees were 
housed in tents with wooden floors, four to a tent. Most were given POW 
uniforms to wear. Any lapse into the ``enemy language'' was forbidden. 
Internees were paid 10 cents a day for chores they performed.
    Having lost the fruits of a lifetime of labor, and facing an 
uncertain future, many adults suffered depression, listlessness, and 
despair. Many had grown children in the U.S. military, fighting 
overseas for a country which had locked up their parents. Many 
internees spent their days appealing to the government for release. 
Their pleas for rehearings were generally ignored. When the government 
persistently asked whether they wanted to repatriate to Germany or 
Japan, some grudgingly accepted this alternative to indefinite 
internment. Some were offered the chance to work outside the camps, 
such as on railroad construction. Most preferred the hard labor to 
incarceration.
    There were also tensions and violence in some camps. A few hard-
core German loyalists in the camps occasionally quarreled with and 
intimidated those with whom they disagreed politically. Jewish 
internees, unaccountably placed near pro-Nazi prisoners, were harassed 
and sometimes beaten. Pro- and anti-fascist factions among the Italians 
occasionally scuffled.
    Most internees had a very difficult time reentering society after 
their long incarceration. They had lost their homes and belongings and 
could not go back to their old jobs. Many were stigmatized, 
particularly in the communities where the arrests and internment were 
well publicized. Others, particularly children, had their educational 
and economic opportunities seriously curtailed. Most internees never 
completely made the transition back to life before the FBI first 
knocked on their doors. Deportees trying to return to the United States 
had an even more difficult time adjusting.
                 legacy of the world war ii experience
    The Alien Enemy Act of 1918, which authorized internment of ``enemy 
aliens'' during WWII, remains intact. It permits arrests, evacuation, 
internment and other actions against ``enemy aliens'' if the United 
States becomes involved in a war, or a foreign country threatens 
invasion. Resident aliens who have not become naturalized citizens are 
still vulnerable any time their birth-country is perceived as a threat 
to U.S. interests.
    All of the communities affected by the wartime treatment of enemy 
aliens agree that public education about the past is vital to 
preventing future mistreatment of immigrants. As former Chief Justice 
Charles Evans Hughes wrote during his term from 1930-42:

        ``You may think that the Constitution is your security--it is 
        nothing but a piece of paper. You may think that the statutes 
        are your security--they are nothing but words in a book. You 
        may think that [the] elaborate mechanism of government is your 
        security--it is nothing at all, unless you have sound and 
        uncorrupted public opinion to give life to your Constitution, 
        to give vitality to your statutes, to make efficient your 
        government machinery.''

    An understanding of the history of the Alien Enemy Control Program 
can help policy makers avoid the mistakes of World War II.
    What were those mistakes?
    First, we relied on weak intelligence to help us separate the very 
few who were truly dangerous from the many who were innocent.
    Second, we assumed that aliens are the enemy. The very title of the 
Alien Enemies Act weds the two ideas. It led to a dragnet approach in 
which a net was thrown over entire German, Italian, and Japanese 
communities in the hopes of catching a few spies or saboteurs.
    Finally, in dealing with our immigrant population, we ignored the 
very due process provisions of the Constitution that bought those 
immigrants here seeking freedom and opportunity.
    So why has so little historical attention been paid to the Alien 
Enemy Program which affected so many thousands of people from German, 
Italian, and Japanese communities? The simple answer is historical 
neglect and governmental shame. But perhaps the answer also lies in 
something one German internee chose to call ``Gitterkrankheit,'' the 
fence sickness. After you've been behind barbed wire for months and 
years, the internee explained, a part of you begins to feel like a 
criminal. When you finally get out, he said, you would rather not talk 
about the past.
                               __________

    Ms. Lofgren. Thank you so much. And I didn't know the Los 
Angeles storm story; it is fascinating.
    Ms. Ebel, I would like to hear from you.

            TESTIMONY OF KAREN E. EBEL, PRESIDENT, 
               GERMAN AMERICAN INTERNEE COALITION

    Ms. Ebel. My father, Max Ebel, a German internee, died in 
May 2007.
    Ms. Lofgren. Could you turn on your microphone, please?
    Ms. Ebel. I am sorry.
    Ms. Lofgren. Very good.
    Ms. Ebel. My father, Max Ebel, a German internee, died in 
May 2007. I am sitting where my father should be. One of the 
last times we talked, he told me how sad he was that the 
Wartime Treatment Study Act had not passed. He said, ``Karen, 
this is important. Don't give up.'' Moments after he died, all 
I could think of was that I had failed. Almost 88, Dad still 
didn't live long enough to hear his government acknowledge his 
internment. He didn't even talk about it until he was 80, and 
then only with much prodding.
    Only 17, Dad arrived in New York Harbor in 1937. He left 
Germany because he had had a dangerous knife fight with local 
members of the Hitler Youth. They were angry because he 
wouldn't join in their activities. Following his father to 
America, Dad boarded the ``SS New York'' with a nickel in his 
pocket, new woolen knickerbockers, and hope. He once told me 
``I was an American right from the beginning, and I always will 
be. I appreciated my freedom as much as a fish let out of a 
bowl.''
    On December 5, 1941, Dad learned that his citizenship 
application was accepted. Two days later, he and a million 
Germans, Japanese, and Italians became the enemy with a stroke 
of FDR's pen. Our country was in grave danger, and America had 
to protect itself. Most escaped the internment disaster and 
some deserved what they got, but thousands didn't. My father 
was one of them.
    Dad was arrested and detained in September 1942, his 
adversarial hearing board recommended parole, but the 
Department of Justice deemed him potentially dangerous to the 
public peace and safety of the United States. Internment was 
ordered. After 3 months in a Boston detention center, he was 
sent to Ellis Island, where he joined hundreds of other 
internees living in squalid conditions.
    Then, by blacked out railcar under guard, it was on to Army 
facilities at Fort Meade, and later Camp Forrest in Tennessee. 
Finally, he landed at Fort Lincoln, in Bismarck, in May 1943. 
The only descriptive note in his calendar says, ``Arrived. 
North Dakota. This is Hell.''
    Dad was back in the fishbowl he thought he had left behind. 
He had no idea why or how he would get out. This was not his 
American dream.
    He eventually found a way out that he was happy helped his 
new country, too. That fall, about 100 trustworthy internees 
marched out of Fort Lincoln. For several months they lived in 
boxcars, still under guard, replacing rails on the North Dakota 
plains.
    In April 1944, he was drafted into the Army. Now my 
dangerous father was trustworthy enough to fight, but he 
flunked his pre-induction physical and remained interned. 
Because the railroaders' good work helped the U.S. war effort, 
he got a rare rehearing.
    Dad really never knew why he was interned, but the release 
recommendation he got years later implied it was because he 
didn't want to fight in Europe and made pacifist remarks. He 
apparently once said Hitler builds good roads. It states that 
Dad was in no sense disloyal, that his further internment was 
unjustifiable and recommends unconditional release. He was 
paroled.
    Back in Boston, he was not allowed near railroads. Three 
years after his arrest, he was finally free. One day in the 
'80's listening to the news about Japanese Americans, Dad said, 
``You know, something like that happened to me.'' I didn't 
pursue it; he didn't either.
    Ten years ago, we did. We learned about the enemy alien 
laws, the camps, the exchanges, and the Latin American Program. 
I think my country is better than this. The internees deserve 
recognition, and the public should know what happened. Progress 
has been made, but slowly and not enough.
    Many still don't believe Germans and Italians were 
interned. Others think there really weren't enough to care 
about, that the internees were mostly only aliens, and that 
they must have been guilty of something to be there in the 
first place. Many internees are still afraid to speak.
    Eight years ago, the Wartime Treatment Study Act was 
introduced for the first time. It was a wonderful, miraculous 
day for the internees. The bill was just introduced for the 
fifth time. We are so grateful to Representative Wexler, 
Senators Russ Feingold and Charles Grassley, for their 
diligence.
    The advanced age of the remaining internees weighs heavily 
on my mind. Acknowledgment is long overdue. Sadly, my dad can't 
be here to see it. You can help make sure the remaining 
internees do. Please make the study commission a reality. Thank 
you.
    [The prepared statement of Ms. Ebel follows:]
                  Prepared Statement of Karen E. Ebel
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. Thank you very much. Before we ask Ms. Donald 
to give her testimony we would note that we have been joined by 
Congressman Robert Wexler, a Member of the Committee.
    Ms. Donald, we would love to hear from you now.

 TESTIMONY OF HEIDI GURCKE DONALD, BOARD AND FOUNDING MEMBER, 
               GERMAN AMERICAN INTERNEE COALITION

    Ms. Donald Libia Yamamoto, from the last panel, and I are 
sisters, sort of, since she came from Peru and my family came 
from Costa Rica. Seven members of my family were taken from 
Costa Rica for internment in the United States in 1943: my 
parents, my aunt and uncle, my cousin, my sister and I were 
all--and thousands of others--lost our livelihoods, our homes, 
our personal property, our countries, and our freedom.
    Over 3,000 ethnic Germans of Latin America were also 
deported through the United States to war-torn Germany. Some of 
them lost their lives. So when I tell you my story, realize 
that my story is one of the least terrible of the stories.
    In World War II, my father was labeled by the United States 
as one of Costa Rica's 35 most dangerous enemy aliens. After 
the war, in a U.S. governmental review done in 1946, they found 
that there were no facts to that claim. Our family's whole 
ordeal hinged on unsubstantiated allegations by anonymous 
informants with one true fact: My father had been born in 
Germany.
    By mid-1941, the U.S. Proclaimed List had ruined my 
father's business. He and my mother, who had barely ever 
gardened, tried to figure out a way to eke their way through 
the war years. They ended up with the idea of a farm, and for 
about a year they were semi-successful. By mid-1942, though, my 
father and my uncle were thrown into a dirty, vermin-filled, 
overcrowded prison. My mother, Starr, who was a United States 
citizen, born and raised in San Jose, California, wrote this 
anguished letter to her brother:
    ``July 17, 1942. Since the day before yesterday, Werner has 
been in the local penitentiary. We haven't the remotest idea 
why they arrested him or what is going to happen to him and the 
many others there, and they won't let me see anyone to find out 
the charges against him or to do any explaining. Heidi wakes up 
at night screaming, `Papi, Papi,' and today is Ingrid's first 
birthday.''
    My father also wrote desperately to the United States 
officials. On the 8th of September, ``In a last effort to solve 
the situation of my family, I, Werner Gurcke now interned in 
the concentration camp in San Jose, Costa Rica, sincerely ask 
to consider the following points: There does not exist a real 
motive for my internment otherwise than that I am German. Even 
if you do think so, there must be a mistake, and I am sure to 
convince you of it if you will have the kindness to present to 
me the reasons.''
    But there was no kindness. There were no hearings; there 
were no legal proceedings; there was nothing.
    So in January 1943 we were loaded onto the United States 
Army Transport Puebla for deportation to the United States. We 
sailed on January 26 and arrived in San Pedro, California on 
February 6. There, we were declared to have entered the country 
illegally because our passports and our visas had been 
confiscated on shipboard.
    We were given tags to tie to our clothes--these are my 
family's tag. Imagine: tagged like a piece of baggage--loaded 
onto a train to the Crystal City Alien Detention Station, which 
later euphemistically has been called a family camp. There, 
public health officials found that of our group of 131 people, 
66 people required immediate medical attention. Two children 
required immediate hospitalization, and 55 of us children were 
sick with whooping cough, including my sister and me.
    Then finally, over 1\1/2\ years after my father was 
arrested, in January 1944, he was finally given a real hearing, 
and by May of that year we were allowed to leave camp, although 
we were forbidden to go home to Costa Rica. My uncle, Karl 
Oscar, and his Costa Rican wife and daughter were sent to 
Germany that same year.
    Did our experience leave scars? Consider these facts and 
draw your own conclusions: My parents lived with uncertainty 
and fear for almost a decade. My father was barely 61 when he 
died of lung cancer caused or exacerbated by chain-smoking 
begun during the long ordeal. And more than 50 years later my 
mother, at age 83, finally tried to tell me the story. It took 
me a month of daily visits, collecting her memories through her 
tears.
    Our suffering, our pain, our loss of civil rights has never 
been acknowledged by Congress. Thousands of lives were damaged; 
enormous amounts of money, which could be better spent 
somewhere else, were spent with no tangible results except 
broken families and destroyed lives. Without a commission we 
are being written out of history. I think we, as a people, can 
and should do better than that.
    [The prepared statement of Ms. Donald follows:]
               Prepared Statement of Heidi Gurcke Donald
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Ms. Lofgren. Thank you very much.
    And finally we will turn to you, Doctor.

TESTIMONY OF JOHN FONTE, DIRECTOR OF CENTER FOR AMERICAN COMMON 
          CULTURE AND SENIOR FELLOW, HUDSON INSTUTUTE

    Mr. Fonte. Thank you, Madam Chairman and Ranking Member 
King.
    Many historical facts cited in the Feingold-Wexler 
legislation are wrong. It is charged that the actions of the 
U.S. government during World War II had a devastating impact on 
Italian American communities. Now, I am an Italian American, 
and for decades have visited many little Italys, but there is 
no evidence offered in this bill of any devastated Italian 
American communities.
    The FBI rightly picked up pro-fascist, pro-Nazi aliens and 
citizens, including members of the German American Bund, and 
the blackshirts. Those interned were a relatively small number 
of people compared to the huge German American and Italian 
American populations in the United States who were 
overwhelmingly loyal.
    It is significant, there is not reference in any of this 
legislation to pro-Nazi, pro-fascist, and pro-Imperial Japanese 
activities by residents of the United States, including aliens 
and citizens. Why not?
    Distinguished historian Robert Abzug, in a review of Mr. 
Christgau's book in the Holocaust Review, wrote that, ``One is 
struck''--this is from Mr. Christgau's book; reading the book, 
Abzug said, ``One is struck by the benign treatment of the 
aliens and the extraordinary access they had to the legal 
system and to appeal procedures.'' He said even pro-Nazi German 
aliens were given all of these rights. Professor Abzug noted 
that most German aliens returned home or became American 
citizens and, ``few emerged with permanent scars.''
    In 2007 the Department of Justice sent a letter to Senate 
Judiciary Chairman Leahy. The DOJ letter stated that Justice 
had contacted the senior historian at the U.S. Holocaust 
Museum. The historian said that the bill's intended depiction 
of the treatment of Axis citizens and European American 
citizens were, ``outrageously exaggerated.'' The Holocaust 
Museum historian, when asked about the bill's accusations that 
the U.S. government violated the civil rights of European 
American citizens, said that he is aware of no historical facts 
to support these conclusions.
    Now, the facts concerning the Jewish refugees in this bill 
are accurate, whereas the facts in the rest of the bills are 
not. So the Jewish refugee section could be made into a 
separate bill, perhaps.
    The bill's very terminology is fraudulent. It defines 
German American as American citizens and resident aliens of 
German ancestry. But a German alien living in the United States 
in 1941 is not a German American, but a German national, a 
citizen of the Third Reich living in the United States.
    The bill establishes an independent commission, but there 
is nothing independent about it. The commission includes two 
members representing the interests of the Italian American 
community, two representing the interests of the German 
American community. Italian American community--am I going to 
be represented, or millions of other people? Who is going to be 
representing the interests of the American community?
    The activists will have four of the seven seats on the 
commission. They will recommend appropriate remedies, which, as 
the Justice Department letter noted, could include financial 
compensation, reparations.
    There is nothing in this bill that would prevent the 
commission from making recommendations for financial 
compensation for former supporters of the Nazi and Fascist 
regimes. The commission is also charged with making 
recommendations for public education programs. These public 
education programs could become the propaganda of moral 
equivalence: they did bad things in the war, we did bad things 
in the war. They had concentration camps, we had concentration 
camps. That term has been thrown around today.
    In fact, we heard in the earlier panel a direct reference 
to the language used in the Nuremburg Trials in describing the 
actions of the U.S. government during World War II. I quote--
earlier, on the first panel--``war crimes and crimes against 
humanity. This is the level of severity of the human rights 
violations for which the United States has not been held 
accountable.''
    This phrase is the exact charge brought against the major 
Nazi war criminals at Nuremburg. The use of the term suggests 
similarity between the behavior of Franklin Roosevelt's America 
and Adolf Hitler's Germany.
    If this commission goes into effect, we, as a Nation, have 
moved from honoring the greatest generation to trashing it. The 
commission is supposed to make recommendations affecting 
American national security, protecting the civil liberties in 
wartime. The agenda is clear. The implicit logic of this bill 
says that there can be no special scrutiny under any 
circumstance for any group at any time.
    During World War II, my Italian American relatives were 
subject to special scrutiny. And they should have been. Today, 
we are in a conflict with radical Islam. Common sense tells us 
that there should be, in some cases, special scrutiny for some 
Muslims.
    If there is a conflict with China, then common sense would 
tell us there should be special scrutiy for some Chinese 
nationals. If there is a conflict with Iran, or Serbia, or 
Luxembourg, the principles of common sense, special scrutiny 
should apply for resident aliens and American citizens 
connected to this foreign power.
    This bill is not only historically inaccurate, it will 
teach us the wrong lessons of how best to protect our country 
in the future. Thank you.
    [The prepared statement of Mr. Fonte follows:]
                    Prepared Statement of John Fonte
    Thank you Chairman Lofgren and Ranking Member King.
    To begin with many historical facts cited in the Wartime Treatment 
Study Act are wrong. It is charged that the actions of the government 
of Franklin D Roosevelt's during World War II had a ``devastating'' 
impact on Italian-American communities whose ``detrimental'' effects 
``are still being experienced.'' I am an Italian American and for 
decades visited many relatives in a lot of ``little Italys'' through 
our country. There is no evidence that Italian-American communities 
were ``devastated.'' No proof has been offered in this bill of any 
``devastated'' Italian American community.
    The FBI rightly picked up those Italian aliens and Italian-American 
citizens, who were pro-Fascist and those German aliens and German-
American citizens who were pro-Nazi, like members of the German 
American Bund, the German-American Settlement League and participants 
in the pro-Nazi Camp Siegfried in New York state. They were a 
relatively small number of people. My grandparents and hundreds of 
thousands of other resident aliens (at that point, enemy aliens) were 
not disturbed. About 11, 000 people of German ancestry (mostly aliens) 
and about 1, 500 people of Italian ancestry (mostly aliens) were 
interned, The numbers are disputed, but, in any case, they are small 
compared to the huge German-American and Italian American populations 
in the United States that were overwhelmingly loyal and deeply involved 
in the wartime struggle.
    It is significant that there is no reference in this legislation to 
pro-Nazi, pro-Fascist, and pro-Imperial Japan activities by residents 
of the United States including aliens and citizens during the period 
from the late 1930s through the Second World War. This certainly 
existed and was successfully combated by the Roosevelt Administration. 
Why isn't pro-Axis activity by residents of the United States discussed 
or examined in this legislation?
    History Professor Robert H. Abzug of University of Texas (who is an 
expert on Jewish studies) in a review of John Christgau's book, Enemies 
wrote that, ``one is struck by the benign treatment of aliens and the 
extraordinary access they had to the legal system and to the appeal 
procedures.'' This included ``even pro-Nazi German aliens.'' He notes 
most of the German aliens returned home or became American citizens and 
``few emerged with permanent scars.'' [source: Holocaust and Genocide 
Studies, Vol., I, No. 2, pp 330-31 (Washington: US Holocaust Memorial 
Museum, 1986)]
    The inclusion of the issue of Jewish refugees to this bill was not 
part of the original concept of the bill and is an obvious fig-leaf, 
added later. On May 8, 2007 the Department of Justice sent a letter to 
Senate Judiciary Chairman Leahy on the Wartime Treatment Study Act 
signed by Principal Deputy Assistant Attorney General, Richard A. 
Hertling. The DOJ letter stated that in 2001 Justice had contacted the 
Senior Historian at the US Holocaust Memorial Museum and the historian 
said ``that the bill's identical depiction of the treatment of Axis 
citizens and European Americans [US citizens] was ``outrageously 
exaggerated.'' The Holocaust Museum historian when asked about the 
bill's accusation that ``the United States Government violated the 
civil rights of European-American citizens'' stated that he is ``aware 
of no historical facts to support those conclusions.''
    The facts concerning the Jewish refugees are accurate, whereas the 
facts in the rest of the bill are not. Therefore, if this issue is 
going to advance further, it would make sense to separate the Jewish 
refugee section into perhaps another bill and not include it in the 
issue of wartime treatment of German and Italian nationals.
    The bill's terminology is fraudulent. It defines ``German-
American'' as US citizens and resident aliens of German ancestry. But a 
German alien living in the United States in 1941, that is to say, a 
citizen of Nazi Germany who is not a citizen of the United States is 
clearly not a ``German-American,'' but a German national living in 
America. The same fraudulent terminology is used in the term ``Italian-
American.'' Italian Americans should be defined as American citizens of 
Italian ancestry, not citizens of Italy living in the United States. 
This misuse of terminology comes from the earlier Japanese American 
legislation and this also should be corrected.
    For the most part, the Roosevelt Administration was not dealing 
with American citizens (except for those who had shown an affinity for 
Fascist Italy and Nazi Germany. We have heard complaints that American 
born children of German nationals (who would be American citizens by 
birth) were returned to Germany with their parents. Under the 
circumstances what was the administration of Franklin D Roosevelt 
supposed to do: separate the children from their parents?
    It is charged by the activists for this legislation that, for 
example, Italian resident aliens and Italian-American fishermen were 
unfairly prohibited from fishing in certain areas. Stephen Sulejman 
Schwartz, a moderate Muslim-American journalist discussed this issue in 
the Weekly Standard as follows:
    ``Venturing into restricted waters was forbidden to all vessels of 
every kind, whether commercial or pleasure boats, without regard for 
their owner's citizenship. Allegations that Italian-American fishing 
boats were confiscated also turn out to be a hoax. Boats were 
requisitioned by the federal authorities through charter or purchase, 
and the only craft confiscated belonged to owners who had repeatedly 
made incursions into prohibited waters.''[source: The Weekly Standard, 
December 10, 2001]
    There are complaints by the activists supporting this legislation 
about loss of civil liberties because of travel restrictions and the 
requirement to carry an identity card, and the like. But, as the same 
Weekly Standard article notes:
    ``What American's freedom was not restricted during World War II? A 
draft was instituted, and evaders of it were imprisoned; consumer goods 
were rationed, wages, prices, rents, and other transactions were 
controlled . . . travel was limited and ordinary people were regularly 
stopped and interrogated. . . . Wars are by definition unfair and 
uncomfortable. Loyalty tests may be especially uncomfortable to some, 
but should not trouble those whose loyalties are clear.'' [source: same 
Weekly Standard article as above]
    The bill allegedly establishes a so-called ``independent'' 
commission. But there is nothing ``independent'' about it. As the 
Justice Department letter stated, the results are already 
``predetermined.'' We have already been told in the bill that the 
administration of Franklin D. Roosevelt was guilty of gross human 
rights violations. The commission is to include ``two members 
representing the interests of the Italian American community'' and 
``two members representing the interests of the German American 
community.'' How is that going to be determined? As an Italian American 
are my interests going to be represented? Remember the fraudulent 
definition of German American and Italian American communities means 
that we are not necessarily taking about the interests of American 
citizens when using these terms. Who, one wonders, is going to be 
representing the interests of the ``American community.''
    In short, the activists are going to be in charge with four of the 
seven seats on the commission. They are supposed to recommend 
``appropriate remedies,'' which, as the Justice Department letter 
notes, ``could include financial compensation.'' In other words, they 
could recommend ``reparations.'' Certainly, there is nothing in the 
bill that would prevent the commission from making recommendations for 
financial compensation for former supporters of the Nazi and Fascist 
regimes, whether the beneficiaries are American citizens or German or 
Italian citizens. Clearly, there is nothing to prevent the commission 
from making such recommendations as the legislation is currently 
written.
    The commission is also charged with making recommendations for 
``public education programs related to the US Government's Wartime 
Treatment of European Americans.'' Is there any doubt that these 
``public education programs'' will be the propaganda of moral 
equivalence: ``they did bad things, so did we; they interned people in 
camps, so did we.'' For example, one activist who is testifying here 
today used the direct language of the Nuremberg Trials in describing 
the actions of the United States government during World War II in a 
speech five years ago:
    The activist declared: ``War crimes and crimes against humanity--
this is the level of the severity of the human rights violations for 
which the United States has not been held accountable.'' The phrase, 
``War crimes and crimes against humanity'' were the exact charges 
brought against the major Nazi war criminals at Nuremberg, many of whom 
were found guilty and executed. The use of the terms ``war crimes and 
crimes against humanity'' cannot be accidental, but an attempt to 
suggest similarities of behavior between Franklin Roosevelt's America 
and Adolf Hitler's Germany during World War II. [source: http://
www.campaignforjusticejla.org/resources/speeches/
dor2004_grace_shimizu.html
    If this commission goes into effect, we, as a nation, will have 
moved from honoring the ``greatest generation'' to trashing it. The 
generation that through tremendous sacrifices defeated the totalitarian 
axis of Nazi Germany, Fascist Italy and the militarists of Imperial 
Japan.
                             future issues
    Worst of all, this stacked commission of activists and special 
interest pleaders is supposed to make recommendations for the future 
affecting American national security such as ``assessing the continued 
viability of the Alien Enemies Act'' and protecting ``civil liberties 
in wartime.'' There is, of course, nothing in this legislation about 
how to combat internal subversion in wartime from residents (aliens and 
citizens) of our country whose loyalty is not to the United States.
    What recommendations for the future will be forthcoming from this 
commission? One of the activists, who is a majority witness here today 
declared:
    ``The necessity for this [public] education has been underscored in 
the aftermath of 9/11 and the unfolding of the global and domestic `war 
on terrorism.' ''
    What happened during World War II ``is history repeating itself in 
the government's current racial profiling.'' [source, same as previous 
web listing on Campaign for Justice website]
    The agenda here is clear and it weakens American security. The 
implicit logic of the bill says that there can be no special scrutiny 
for any particular group at any time, as, for example, occurred was 
during World War II. However, we should implement common sense special 
scrutiny actions where appropriate. For example, it makes sense for 
security at our nation's airports (TSA) to examine special scrutiny 
measures used by other liberal democratic nation--states such as Israel 
and Spain in dealing with potential threats.
    In fact, if we are serious about protecting lives, we need at 
different times to exercise a particular type of special scrutiny. 
During World War II it made sense to treat the communities of German 
and Italian aliens and citizens differently from other citizens and 
residents of the US. It certainly made sense to treat those who had 
expressed an ideological affinity with Nazism, Fascism, and Japanese 
imperialism differently from other residents and citizens of the US.
    My relatives as Italian Americans during World War II were subject 
to special scrutiny and they should have been. Today, we are in 
conflict (whether admitted or not) with radical Islam. This means that 
common sense tells us that there should be, in some cases (not blanket, 
but in some cases), special scrutiny for Muslims (residents and 
citizens) in America. If there is a conflict with China, say over 
Taiwan, then common sense would tell us that there should be special 
scrutiny for Chinese nationals (and some other residents, including 
citizens) living in the US. Likewise, if there is a conflict with 
Venezuela, Iran, Serbia, Somalia or Luxembourg, the same principle of 
common sense special scrutiny should apply for resident aliens and 
American citizens connected with the foreign power.
    The Wartime Treatment Study act is not only historically 
inaccurate, most importantly, it will teach us the wrong lessons on how 
best to protect our country in the future.
                               __________

    Ms. Lofgren. Thank you. The gentleman's time has expired.
    Now we will turn to Members of the Committee to see if 
there are questions for any of the panel members.
    First I will turn to you, Mr. King.
    Mr. King. Thank you, Madam Chair.
    Again, I thank all the witnesses for their testimony. A 
series of questions arise for me, but I would--before I ask 
them, I have an article here that is the ``Campaign for 
Justice,'' dated February 22, 2004, an article written by Grace 
Shimizu, that I ask unanimous consent to introduce into the 
record.
    Ms. Lofgren. Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. King. Thank you, Madam Chair, and all. That is direct 
contradiction to the earlier testimony. And I wanted to point 
out that ``Hill or Bill's good rules by all account, I think 
so,'' on a statement made that turned out to apparently be the 
lead of our pejorative.
    But some of the questions that come to mind to me would be, 
as I listen to Mr. Christgau, this tone of America. And I am 
just asking myself as I listen to your testimony, if you were 
to list the countries in the world and in order of their 
morality, or their relative morality, where would you put the 
United States with----
    Mr. Christgau. Number one.
    Mr. King. As the most moral Nation?
    Mr. Christgau. Yes.
    Mr. King. Very good. That really helps me put your 
testimony on a different perspective, and I just appreciate 
that.
    And I would ask also of Ms. Ebel this question, and I know 
that this gets focused on the family history and the things 
that you know because of personal experience, et cetera, but 
have you rolled over the thought about how everybody's destiny 
is changed by a war? And I know that your testimony reflects 
upon how your family's destiny was changed because of the 
actions that took place within the context of this war.
    Have you speculated on how different it might be if the 
internees had been drafted rather than interned? A certain 
percentage would have gone into combat and been put at great 
risk. Would that have been an injustice to draft them into the 
military rather than intern?
    Ms. Ebel. It is true that they could have been interned or 
they could have been drafted and gone into the war. In my 
father's case, he objected to it because he had family in 
Europe, and he was concerned about fighting against his brother 
and his cousin, and so that is why he objected to it. In his 
release recommendation, they also noted that he was 
disappointed that he had flunked his pre-induction physical, 
and that he was willing, then, to go and fight.
    But are you asking me whether it would be better to draft 
enemy aliens and have them fight in the war than intern them?
    Mr. King. I would like to ask you a more general question, 
and less specific. But, if there was a conscientious 
objections, or as going back to Germany where my uncles went 
even though my grandmother came from there the previous 
generation, there was another theater in Japan, which we have 
heard about, so from that perspective, I would just ask if you 
have contemplated about, as you speak for many others, I 
believe, here as a witness, how the destiny might have changed 
had some of them been sent into the front and perhaps been 
captured by the enemy and put through those camps instead? 
Wouldn't we have had more fatalities--some fatalities among 
this group that you are representing today that wouldn't have 
lived through the war?
    Ms. Ebel. Yes, I think we would have.
    Mr. King. And would that have been a worse atrocity?
    Ms. Ebel. For them to go in and fight in a war and die for 
their country? Yes. But I also wanted----
    Mr. King. And many of our contemporaries and many of our 
parents were engaged in that in a noble patriotic effort and 
lost their lives. So I raise that at the beginning. I just am 
having trouble getting past that comparison.
    I think I should turn to Mr. Fonte and ask if you would 
comment on that?
    Ms. Ebel. Well, I just want to say that my father was 
willing to go to the Pacific, but he had objected to going to 
Germany. And I also want to add that there were many internees 
who had family members fighting in Europe and in the Pacific 
while they were sitting in internment camps.
    Mr. King. I agree. Thank you.
    Mr. Fonte?
    Mr. Fonte. Well, in fact, my uncle was involved--and fought 
against the Italians and Sicilians during a war, too, so as 
many Italian Americans did.
    Mr. King. I thank you.
    Madam Chair, I yield back.
    Ms. Lofgren. The gentleman yields back.
    I would ask Ms. Sanchez if she has a question.
    Ms. Sanchez. I just very briefly wanted to follow up on 
something that Ms. Ebel said regarding the fact that many 
aliens who were interned during this period had grown children 
that were fighting for the U.S. military effort, and I wanted 
to ask--our first witness, were there--how often that happened 
that they had family that was fighting for the United States 
while their parents while their parents were sitting in 
interment camps.
    Mr. Christgau. It happened frequently.
    Ms. Sanchez. And that was never taken into consideration 
when they were deciding who would be interned.
    Mr. Christgau. No, it was not.
    Ms. Sanchez. Ms. Ebel, you stated that your father, while 
he was being interned, was called up to be drafted by the Army. 
Don't you find it kind of ironic that they would be drafting a 
so-called dangerous person to serve in the military for the 
United States?
    Ms. Ebel. Well, I thought it was a great irony that he was 
so dangerous that he couldn't be free in the United States, but 
he could go and fight on behalf of the United States. And then 
when he flunked his physical, he went right back into the 
internment camp again.
    I just want to add one interesting anecdote in response to 
your earlier question, was that during the Jimmy Doolittle 
Raid, one of the navigators for Jimmy Doolittle was a German 
American-born man, and his father was an alien internee in 
Washington State.
    Ms. Sanchez. A wonderful way to treat patriots.
    Last question for you: Those who were allowed to go home 
after the end of the war in 1945 had to sign an oath of silence 
not to talk about their internment. Do you know what the 
penalty was for speaking out against what had happened?
    Ms. Ebel. My understanding is that the penalty was possible 
deportation and possible internment, and that was the precise 
reason why many who signed the oath never spoke. I have heard 
of several stories where there were deathbed confessions of 
internment, and the family was just around, they couldn't even 
believe what they were hearing. So the devastation to the 
individuals who were interned continued long after the 
internment.
    Ms. Sanchez. Thank you all for your testimony, and I yield 
back.
    Ms. Lofgren. The gentlelady yields back.
    The gentleman from California wishes to ask a question.
    Mr. Lungren. Yes, thank you, Madam Chair.
    As you may know, during my prior service in Congress I was 
selected to serve on the Commission on Wartime Relocation, and 
the civilians always know me, sitting Member of Congress who 
served on that panel. I did that because I grew up in southern 
California and was completely unaware of the treatment of 
Japanese Americans and Japanese nationals.
    My home area, I lived not too far--I grew up not too far 
away from Federal Island, unaware that prior to World War II 
there was--Japanese American village there--fishing village--
that was never returned after the war. And I grew up with the 
Japanese Americans in my community that had never heard about 
that. So when this was brought to my attention in the first 
Congress--the first time I was in Congress--I supported the 
effort to establish a commission.
    I did so by getting sufficient Republican votes to make 
sure that we could pass it, but I did so at that time by 
promising Members that it was not a simple excuse for granting 
reparations; rather, it was a commission--study the record and 
establish what the history was. But I do recall at the very 
first meeting that we had of the commission, one of the 
commissioners turned to us assembled and said, ``Okay, how much 
money are we talking about?'' which, frankly, put off alarm 
bells in my head because I had promised Members that was not 
the purpose of it. Rather, I had thought it was important for 
us to investigate that period of time, since it was fairly well 
unknown about the treatment of fellow citizens and people who 
were here legally at that time.
    I still think it is important for us to have historical 
records so that we know. I don't think we know enough about how 
we--what the decisions were with respect to the Japanese Latin 
Americans here, and there is a lot of lack of knowledge with 
respect to Germans and Italians.
    But I would say that--and I am a co-sponsor of legislation 
to look at the question of Japanese Latin American treatment, 
but I would say this: I think we ought to be careful about how 
we handle this.
    I hear about members of your family who were reluctant to 
talk about their experiences. My dad was drafted into World War 
II as a doctor. He was a battle--he was a physician who was 
within one block, as I was told by someone who called me just a 
year ago, within one block of the front lines in Normandy. He 
received a Purple Heart there.
    He never spoke in any detail about his experiences in World 
War II. It wasn't because he signed some oath. Because that 
experience was so horrendous. He told me he did not--he tried 
not to make friends, because he lost them so fast. He described 
to me one time one friend he did make who was blown up in front 
of his eyes, and there were just pieces of flesh and that was 
all that was left.
    So there are many who suffered, and many who, in that 
generation, sacrificed. I would hope that if we move on these 
bills, and the bill in which I have cosponsored, that we would, 
I hope, look at establishing a proper historical record as 
being the prime reason we are doing this, not that we are 
looking at making amends by reparations or something like that.
    Let me just say this: It is awfully easy for a generation 
60 years later to say, ``God, you were terrible, and we 
wouldn't have done this.'' My hope is that if you have a 
historical record established, we learn from those experiences, 
try and adopt some perspective and some policies which prevent 
us from making some mistakes that were made.
    But just to set a little record, because there was some 
talk about the FBI. There was one person in the higher 
positions of the Federal Government who disagreed with Franklin 
Delano Roosevelt's decision to round up Japanese Americans and 
nationals from the east and west coast. You know who that 
person was? J. Edgar Hoover, who said that based on the best 
information he had he thought he could limit the number of 
people we are talking about to the ones that he thought were 
suspicious. Now, in retrospect, we probably know that he was 
wrong on some of the people they would have rounded up. 
Wouldn't that have been a better process than what we did do?
    And in fact, if you want to look at the historical record, 
it was in Hawaii that we did not impose that same order because 
the military commander in Hawaii said if we had that same order 
that was imposed in Hawaii we wouldn't have enough workers, and 
we wouldn't have an opportunity to be able to maintain the 
economy there. And so there we used J. Edgar Hoover's approach, 
and we only rounded up a few people of Japanese American 
ancestry.
    The only point I am trying to make is as one who has been 
through this, who has been through the commission, sat on it, 
the only sitting Member of Congress who was willing to sit on 
that commission, I know the emotion that goes into it, and I 
know the possibilities of utilizing language. For anybody to 
say that we had concentration camps, and therefore equate what 
we did with what the Germans did, it is historically incorrect 
and casts a dispersion upon that generation.
    And to suggest that we engaged in war crimes or crimes 
against humanity, frankly, I think, is more than exaggeration. 
It upsets the historical record and frankly, it is not the way 
to gain support in the Congress of the United States and for a 
commission to look at any of this. I hope we would understand 
that----
    Ms. Lofgren. The gentleman's time has expired, and we have 
given extra time because of your service on the first 
commission. And we would thank this panel for your testimony.
    Ms. Ebel, I was particularly touched by your commitment to 
your father. As someone who has lost her father, I know that 
those obligations are important ones indeed, and I think you 
are living up to your promise.
    Ms. Ebel. Thank you.
    Ms. Lofgren. Thank you very much, and we will ask our next 
panel to come forward.
    I will introduce them as they step forward. First, Valery 
Bazarov. Mr. Bazarov was born in Russia in 1942, immigrated to 
the United States in 1988. He holds two graduate degrees from 
Odessa State University and Hunter College. He joined the 
Hebrew Immigrant Society in 1988 and currently is committed to 
finding and honoring the heroes of Jewish and non-Jewish 
descent who rescued European Jews during the Holocaust.
    Our next witness is David Harris. Mr. Harris has been the 
executive director of the American Jewish Committee since 1990. 
He travels the globe meeting with world leaders to advance the 
wellbeing of Israel, combat anti-Semitism, monitor the 
condition of Jewish communities, and promote intergroup and 
inter-religious understanding. He is a prolific author and 
commentator, and his insightful weekly AJC radio broadcasts are 
heard by an estimated 35 billion listeners nationwide on the 
CBS radio network.
    Next, I am pleased as Mr. Leo Bretholz is here. Mr. 
Bretholz was in France in 1940, and by the summer of 1941, HIAS 
had assisted his aunt and uncle in the U.S. to apply for a visa 
for their nephew. However, in July 1941, just a day after the 
bombing of Pearl Harbor, his visa was delayed. Mr. Bretholz 
spent the next 6 years running from city to city around Europe 
barely escaping death several times. Finally, in 1947, he 
obtained a visa to the United States. He has published a book, 
``Leap Into Darkness,'' that describes his life between 1941 to 
1947.
    And the final witness is Michael Horowitz. Mr. Horowitz is 
the director of the Hudson Institute's project for civil 
justice reform and project for international religious liberty. 
He served as general council for the Office of Management and 
Budget under the Reagan administration and has taught law at 
the University of Mississippi and at Georgetown. He has also 
practiced law as a partner at several national firms.
    Now, before I ask you to testify, I would like to note the 
presence in our audience today of Ira Crispen, who is a pretty 
famous immigration lawyer and author of immigration text that 
is used as a sourcebook throughout the United States.
    So Ira, we are very happy to have you here today, and 
honored, actually, by your presence.
    Ms. Waters. And he is my friend.
    Ms. Lofgren. And also, Ms. Waters' friend, so also to your 
credit.
    We would ask, as you have heard before, your full 
statements will be made part of the official record. We would 
ask your testimony to consume about 5 minutes, and then we will 
have an opportunity to ask questions.
    So if we could begin with you, Mr. Bazarov?
    Mr. Bazarov. Madam Chair, may I ask your permission to 
testify after Leo Bretholz, and you will understand why----
    Ms. Lofgren. That would be fine.
    Mr. Bazarov. Thank you.
    Ms. Lofgren. Then we will go to Mr. Harris.

  TESTIMONY OF DAVID A. HARRIS, EXECUTIVE DIRECTOR, AMERICAN 
                     JEWISH COMMITTEE (AJC)

    Mr. Harris. Do I get his 5 minutes too? [Laughter.]
    Madam Chairwoman, distinguished Members of the 
Subcommittee, my name is David Harris. I am the executive 
director of the American Jewish Committee. Thank you for 
holding this hearing on the topic of immense historical 
importance that resonates to the present day.
    Time does not permit more than a brief discussion of U.S. 
immigration policy during the years of the Third Reich. 
Fortunately, there are many scholarly works and personal 
testimonies to fill out the picture. They make clear that as a 
Nation we did far less to rescue Jews who were targeted for 
extinction by the Nazi juggernaut than we could and should 
have.
    Allow me to cite just three examples that I believe 
encapsulate the larger story. In May 1939, a passenger liner, 
the ``St. Louis,'' set sail from Hamburg with over 900 Jewish 
refugees. It was destined for Cuba, but on arrival Cuban 
officials canceled the passengers' transit visas and refused to 
let all but a handful disembark.
    The ship then headed for the coast of Florida, coming so 
close that the refugees could see the lights of Miami, but U.S. 
officials refused to let it enter a port. The ship was sent 
back to Europe, and more than a quarter of the passengers, we 
know, were killed by the Nazis. Imagine, Madam Chairwoman, our 
country could find neither the compassion nor the legal basis 
to admit 900 Jews fleeing Hitler who were within sight of our 
shores.
    The next year, 1940, Assistant Secretary of State 
Breckenridge Long wrote his now legendary words, ``We can delay 
and effectively stop for a temporary period of indefinite 
length the number of immigrants into the United States. We 
could do this by simply advising our consuls to put every 
obstacle in the way and to require additional evidence and to 
resort to various administrative devices which would postpone 
and postpone and postpone the granting of the visas.''
    Imagine key State Department officials, when they were not 
suppressing information coming from Europe about the fate of 
the Jews--and that is its own story--were seeking ways to block 
entry into the United States. In so doing, they failed even to 
meet the strict immigration quotas operative at the time. From 
1933 onward, and I would wish to stress this point, the annual 
country quota for immigrants from Germany was only filled 
once--exactly once--even though, as you can well imagine, there 
was no shortage of applicants. The obstacle was a lack of 
compassion.
    And the refugees had few other places to turn: Britain, 
which itself took in 70,000 European Jews, succumbed to Arab 
pressure and tightened still further entry into Mandatory 
Palestine when, tragically, there was no sovereign Israel to 
offer safe haven. The vast majority of Europe's Jews, feeling 
the Nazi noose tightening around their necks, were trapped--
literally trapped--even when they could still leave countries 
like Germany and Austria. Too many had nowhere to go; they were 
the unwanted flotsam of the Second World War.
    And third, on January 16, 1944, Henry Morgenthau, the 
secretary of the treasury, wrote his now famous cri de coeur to 
President Roosevelt. He quoted a Senate Foreign Relations 
Committee report recommending a commission to formulate plans 
to save Europe's Jews. The Committee report said, ``We have 
talked; we have sympathized; we have expressed our horror; the 
time to act is long past due.''
    At the conclusion of Morgenthau's admirable letter, with 
anger and anguish he wrote to the President, his friend, 
referring to the State Department--our State Department--``The 
matter of rescuing the Jews from extermination is a trust too 
great to remain in the hands of men who are indifferent, 
callous, and perhaps even hostile.'' Morgenthau's intervention 
resulted in the creation of the U.S. War Refugee Board, which 
protected an estimated 200,000 Jews from otherwise certain 
death.
    It was a stark reminder of what this country was capable of 
when it resolved to act. If only we had acted sooner. But alas, 
the government spent little time considering ways to rescue 
Jews, slow down the transport trains to the camps, bomb the 
machinery of death, or warn the Nazis of sever retribution for 
their genocidal policy.
    Madam Chairwoman, ladies and gentlemen, I cannot end this 
testimony without a personal word. Even with the falures of 
omission and commission in American policy, an estimate 200,000 
Jews were able to enter the United States from 1933 to 1945. 
That number may have been a mere pittance compared to those who 
sought and were eligible for entry, but nonetheless, those 
200,000 Jews were saved.
    I would not be here today were it not for that group of 
200,000. My mother and maternal grandparents were among them, 
arriving in New York in November 1941. Their entry into the 
United States, though, was not easy, I assure you. But in the 
end, having crossed the Iberian Peninsula to Lisbon, the 
boarded the ``SS Exeter'' and found a safe haven and new start 
in this country.
    If only more leaders had had the capacity not only to grasp 
the genocide at had, but also to identify with the anguish of 
the victims who, until the very end, wanted to believe that 
their plight would not, could not, go neglected. Then there 
would have been no need at least for my part of the panel. And 
yes, there would be many more people like myself, today proud 
to call America home.
    Thank you, Madam Chairwoman.
    [The prepared statement of Mr. Harris follows:]
                 Prepared Statement of David A. Harris
    Madame Chairwoman, Distinguished Members of the Subcommittee,
    My name is David Harris. I am the executive director of the 
American Jewish Committee.
    Permit me to thank you for holding this hearing on a topic of 
immense historical importance that continues to resonate--and haunt 
us--to the present day.
    Time does not permit more than a brief review of U.S. immigration 
policy from 1933 to 1945, the years that coincide with the rule of the 
Third Reich. Fortunately, there are many scholarly works on the 
subject, as well as personal testimonies, which fill out the picture.
    Upon assuming office in 1933, President Franklin D. Roosevelt was 
immediately confronted with two daunting challenges--one domestic, the 
other foreign.
    At home, President Roosevelt faced the devastating impact of the 
Great Depression and the pressing need to rebuild the economy and 
restore confidence in the nation.
    Abroad, President Roosevelt took office just weeks after Adolf 
Hitler ascended to power in Berlin.
    From the start, the President showed courage and sagacity in 
dealing with the domestic challenge, while, over time, recognizing, to 
his everlasting credit, that a country unenthusiastic about the 
prospect of once again rescuing Europe from its own demons, as it had 
in the First World War, needed to be prepared for that eventuality.
    But the Roosevelt era included one great failing. As a nation, we 
did far less to rescue Jews, who were targeted for extinction by the 
Nazi juggernaut, than we could and should have.
    Who was to blame? Frankly, it would be easier, and much shorter, to 
list who was not to blame.
    The reasons, excuses, and defenses for those who failed to act 
could fill volumes.
    However sensitive President Roosevelt might have been to the Jews' 
plight, and there is reason to believe that he was, domestic politics 
at the time made it difficult for him to act.
    He was fearful of inciting the fertile ground of domestic anti-
Semitism and facing the wrath of widespread nativist sentiment, both 
attested to by public opinion polls at the time. Moreover, he was 
convinced, once the U.S. entered the war, that the best way to help 
Europe's Jews was to vanquish the Nazis as quickly as possible, without 
any so-called distraction or diversion of resources.
    The Congress, while including some Members who desperately wanted 
to help beleaguered Jews, could not overcome the resistance of 
restrictionist colleagues, who, reflecting the popular mood, were 
unwilling to revisit strict immigration laws adopted in 1924, leaving 
those laws intact throughout the period under discussion here.
    The State Department, plagued by the bureaucratic instinct for 
inertia and legalism at its worst, not to mention a tissue-thin facade 
that barely concealed the anti-Semitism of some of its key decision-
makers, was the last place in Washington to look for help.
    The general public was certainly not clamoring for the gates to be 
opened. Fearful of more newcomers, who were seen as threats to scarce 
jobs, and influenced the hysteria wrought by demagogues like Father 
Charles Coughlin, who railed against the Jews in his popular radio 
broadcasts, the American people exerted little pressure on elected 
officials to do something dramatic to help Europe's embattled Jews.
    In fact, a 1942 survey, cited by Leonard Dinnerstein in 
Antisemitism in America, found that Americans rated Jews as the third 
greatest ``menace'' to the country, behind only Germans and Japanese, 
the country's sworn wartime enemies. By 1944, Jews had moved to the top 
of the list, with 24 percent of Americans believing that Jews posed the 
greatest danger.
    With notably few exceptions, the media did not experience its 
proudest moment, either. In such leading newspapers and opinion-molders 
as the New York Times, stories about the plight of Hitler's victims 
were often brief and buried, and editorials were few and far between. 
They hardly contributed to an understanding of, much less a popular 
outrage against, what was taking place in Europe, even as the grisly 
facts of the Nazi eliminationist plans emerged.
    Jewish agencies, including my own, were alarmed by the trajectory 
of developments and sought in their various ways to raise consciousness 
and reach decision-makers, though, it must be said, their clout was 
severely limited. Indeed, as historian Henry Feingold despairingly 
notes in The Politics of Rescue:

        Much of their formidable organizational resources were 
        dissipated in internal bickering until it seemed as if Jews 
        were more anxious to tear each other apart than to rescue their 
        coreligionists.

    I could go on. Suffice it to say that this was not our country's 
finest hour.
    In the interests of time, let me cite just three examples that, I 
believe, encapsulate the larger story.
    In May 1939, a passenger liner, the St. Louis, set sail from 
Hamburg with over 900 Jewish refugees. It was destined for Cuba, but, 
on arrival, Cuban officials cancelled the transit visas that had been 
issued to the passengers and refused to let all but a tiny handful 
disembark. The ship then headed for the coast of Florida, coming so 
close that the refugees could see the lights of Miami, but U.S. 
officials callously refused to let it enter a port and discharge its 
passengers. Rather, the ship was sent back to Europe. More than a 
quarter of the passengers, it is known, were subsequently killed by the 
Nazis.
    Imagine, our country could find neither the compassion nor the 
legal basis to admit 900 Jews fleeing Hitler who were within sight of 
our shores.
    The next year, Assistant Secretary of State Breckenridge Long, no 
friend of Europe's Jews, to say the least, wrote his now legendary 
words: ``We can delay and effectively stop for a temporary period of 
indefinite length the number of immigrants into the United States. We 
could do this by simply advising our consuls to put every obstacle in 
the way and to require additional evidence and to resort to various 
administrative devices which would postpone and postpone and postpone 
the granting of the visas.''
    Imagine, key officials in the State Department, when they were not 
trying to suppress information coming from Europe about the fate of the 
Jews, were actively seeking ways to block entry to the United States. 
In so doing, they failed even to meet the strict immigration quotas 
operative at the time. Shockingly, from 1933 onward, for example, the 
annual country quota for immigrants from Germany was only filled once.
    In 1939, for example, there were over 300,000 applicants for the 
27,000 German slots alone. The failure to do so was not for any 
shortage of applicants, cumbersome though the process was--including, 
hard as it may be to believe, a Certificate of Good Conduct from German 
police officials and, as of September 30, 1939, proof of permission to 
leave Germany. Rather, the problem was a total lack of compassion.
    Nor were the refugees excluded in the knowledge that, if the United 
States did not resettle them, other nations would. Indeed, few other 
countries did.
    Apropos, Britain, which itself took in 70,000 European Jews, 
succumbed to Arab pressure and tightened still further entry into 
Mandatory Palestine, another theoretical escape route, when, 
tragically, there was no sovereign Israel to offer safe haven to Jews 
in desperate need.
    Two major intergovernmental conferences, Evian in 1938 and Bermuda 
in 1943, were touted as venues for discussion of the refugee crisis, 
but the U.S. and other participants seemed more far interested in the 
politics of symbolism than in substance.
    In other words, the vast majority of Europe's Jews, feeling the 
Nazi noose tightening around their necks, were literally trapped, even 
when they still had the chance to leave countries like Germany and 
Austria. Too many had nowhere to go. They were the unwanted flotsam of 
the Second World War.
    And on January 16, 1944, Henry Morgenthau, the Secretary of the 
Treasury, wrote his cri de Coeur to his friend, President Roosevelt.
    In it, he said:

        The best summary of the whole situation is contained in one 
        sentence of a report submitted on December 20, 1943, by the 
        Committee on Foreign Relations of the Senate, recommending the 
        passage of a Resolution (S.R. 203), favoring the appointment of 
        a commission to formulate plans to save the Jews of Europe from 
        extinction by Nazi Germany. . . . The committee stated: `We 
        have talked; we have sympathized; we have expressed our horror; 
        the time to act is long past due.'

    Concluding his admirable letter to the President, Morgenthau wrote, 
referring to the State Department:

        The matter of rescuing the Jews from extermination is a trust 
        too great to remain in the hands of men who are indifferent, 
        callous, and perhaps even hostile.

    Imagine, the Secretary of the Treasury felt compelled to resort to 
such language about governmental colleagues in a letter to the 
President, so angry and anguished was he about U.S. refugee policy.
    Importantly, the result of Morgenthau's intervention was the 
creation of the U.S. War Refugee Board, which, through sheer ingenuity 
and audacity, was successful in rescuing an estimated 200,000 Jews from 
otherwise certain death.
    It was a stark reminder of what this country was capable of when it 
resolved to act. If only we had done so sooner--but, alas, the 
government spent little time considering ways to rescue Jews, slow down 
the transport trains to the extermination camps, bomb the machinery of 
death, or warn the Nazi regime of severe retribution for its genocidal 
policy.
    Madame Chairwoman, I cannot end this testimony without a personal 
word.
    Even with the grievous failures of omission and commission in 
American policy, an estimated 200,000 Jews were able to enter the 
United States in the 12-year period from 1933 to 1945.
    That number may have been a mere pittance compared to those who 
sought entry and, indeed, were eligible for admission under the 
existing quota system, but nonetheless those 200,000 Jews were saved.
    I would not be here today, Madame Chairwoman, were it not for that 
group of 200,000. My mother and maternal grandparents were among them, 
arriving in New York in November 1941.
    Their entry into the United States was not made easy, I assure you, 
but in the end, having crossed the Iberian Peninsula to Lisbon, they 
were able to board the SS Exeter and find a safe haven, and new start, 
in this country.
    But if only more leaders had had the capacity not only to grasp the 
genocide at hand, but also to identify with the anguish of the 
victims--the victims who till the very end wanted to believe that their 
plight as human beings would not, could not, go neglected--then there 
would have been no need for this hearing. And, yes, there would be many 
more people like myself today proud to call America home.
    Thank you, Madame Chairwoman.
                               __________

    Ms. Lofgren. Thank you, Mr. Harris.
    Mr. Bretholz, we will be pleased to hear from you.
    Could we get a microphone?

                  TESTIMONY OF LEO BRETHOLZ, 
                AUTHOR OF ``LEAP INTO DARKNESS''

    Mr. Bretholz. Madam Chairwoman, it is a pleasure to be here 
and a privilege to have been invited to share my story with 
you.
    I am not an angry man. I am a disappointed man. I am sad 
because what Mr. Harris just said spells it all out. In 
addition to Breckenridge Long, there was a man at the State 
Department by the name of Robert Borden Reams, and Robert 
Borden Reams was informed by a man in Geneva by the name of Dr. 
Guerhard Reidner--he was the representative in Geneva of the 
America Jewish Congress--that he had just learned that the 
Final Solution has been decided on the the Wannsee Conference.
    Robert Borden Reams notified the American consulates 
overseas not to pay attention to Dr. Reidner's report, because 
for your information, Reidner is Jewish. And Robert Borden 
Reams was in charge of the Nazi Jewish desk at the time at 
State Department.
    My story is one very personal of survival during the 
Holocaust. I was living in Vienna in Austria in March 1938 when 
Hitler and the German army entered the city and--the annexation 
of Austria, and at the encouragement of my mother, I fled 
Austria. In April 1941, I had an aunt and uncle in Baltimore 
who prepared affidavits hoping to obtain a visa of immigration 
to the United States. That autumn, deportations from Vienna 
began.
    During this time, I was in France dreaming of immigrating 
to the United States, and every day I went to the post office 
hoping to find good news somewhere beyond so much awfulness. 
One day my eyes fell on a red, white, and blue bordered envelop 
from America. The postal clerk knew.
    For weeks I had been sighing disappointedly when no mail 
arrived from the United States, and now my aunt in Baltimore 
was writing to me. And with the help of the HIAS Hebrew 
Immigration Aid Society, my affidavit was accepted by the U.S. 
Immigration and Naturalization Service. In the near future, my 
aunt wrote I should receive notification from a U.S. consulate 
to appear at its office for my visa.
    In November, I received notification that stated, ``Present 
yourself at the U.S. consulate in Marseilles on December 8, 
1941.'' Early in the morning December 8, I stopped at the 
newspaper kiosk on my way to the U.S. consulate in Marseilles. 
I saw a headline. For those who know French, ``Le Japon Attaque 
La Flotille Americaine A Pearl Harbor''--Japan has attacked the 
American fleet in Pearl Harbor.
    Now, I didn't know who this Pearl, was, you know, an 
unknown person to me, of course. I stood transfixed. Never had 
I heard of Pearl Harbor, and now it was the fulcrum of my 
entire life. At 9 o'clock I presented myself at the 
receptionist--to a receptionist at the consulate and saw more 
than a dozen visa applicants.
    We waited at the consulate for someone in authority to 
enter the room to tell us our pleas would be answered, that an 
exception would be made for us. No one came. As I left, the 
consulate seemed a descent into doom, because the consulate had 
notified, no visa applications are going to be examined.
    After being denied a visa to the United States, I spent the 
next 6 years on the run, barely escaping death--as I like to 
say, trying to be one step ahead of those who wanted me dead. 
And that was in Vichy, France. I escaped Germany by swimming 
across the River Sauer into Luxembourg; I escaped the French 
camp at St. Cyprien near the Pyrenees Mountains; I crossed the 
Alps by foot into Switzerland, hid into attics; I was sent back 
to Vichy, France from Switzerland--by the way, I was arrested; 
I escaped and leapt from a train at night that was bound for 
Auschwitz--that was on the 6th of November, 1942, and were it 
not for this night of November 6, 1942, I would not be sitting 
here talking, because in that train, 20 cattle cars, 50 each, 
1,000 people, only five survived, and I am one of them. I had 
escaped from the train with a friend on the night of November 
6, 1942.
    I wanted to find myself in the United States, and from 
Baltimore I received a letter from my aunt telling me to be 
patient. She had prepared another affidavit of support with the 
help of the HIAS Hebrew Immigration Aid Society. But at the 
time, there were thousands like me trying to immigrate to the 
United States. The process was slow.
    Almost a year later, on March 18, 1946, I received a letter 
from the American consulate in Bordeaux saying that I had been 
given a low case number, number 531. Receiving the low case 
number made me feel very important.
    In December 1946 I received my French exit visa. A week 
later I was booked passage on the steamer ``John Ericsson.'' I 
departed for the United States in January 1947; I arrived here 
62 years ago.
    I reached America in 1947 and hid my story for the next 14 
years. Why had my life been spared when so many had been taken? 
Would some miracle arrive in the mail telling me that my mother 
and sisters were still alive somewhere in the wreckage of 
Europe? However, I do know that if I and many others had 
received visas to immigrate to the United States in 1941, many 
of us would have been spared the horrific experiences we 
endured, and many more people would have survived.
    My mother and sisters were murdered in a death camp, and 20 
more family members. In addition to the story of the ``St. 
Louis,'' there is also one other story that has to be 
mentioned, that while 10,000 children were admitted to England 
in 1938 and 1939, at that time there was a bill introduced in 
the United States Congress to admit several hundred children 
and it was voted down in the United States.
    I want to end, Mrs. Chairwoman, with a quote from George 
Fantayana, and this is all the exercise here, but this is not 
recrimination because we are changing the past. That is the 
past. That cannot be changed. But George Fantayana said, ``If 
we do not remember the lessons of history, we are condemned to 
repeat them.'' And this exercise here is to make sure that that 
will never get repeated.
    Thank you very much.
    [The prepared statement of Mr. Bretholz follows:]
                   Prepared Statement of Leo Bretholz
    I was living in Vienna, Austria in March 1938 when Hitler and the 
German army entered the city. At the encouragement of my mother, I fled 
Austria.
    In April 1941, I had an Aunt and Uncle in Baltimore who prepared 
affidavits, hoping to obtain a visa of immigration for me to the United 
States. That autumn, deportations from Vienna began. An Aunt and cousin 
of mine were shipped to a Lodz ghetto en route to Auschwitz. An Uncle 
of mine was already there. During this time, I was in France, dreaming 
of immigrating to the United States. Every day, I went to the post 
office, hoping to find good news somewhere beyond so much awfulness. 
One day, my eyes fell on a red-white-and-blue bordered envelope from 
America.
    ``Enfin, ca y est,'' the postal clerk said. At last, it's here.
    The postal clerk knew. For weeks, I'd been sighing disappointingly 
when no mail arrived from the United States. Now, my Aunt in Baltimore 
was writing to me. With the help of the Hebrew Immigration Aid Society, 
my affidavit was accepted by the U.S. Immigration and Naturalization 
Service. In the near future, my Aunt wrote, I should receive 
notification from a U.S. Consulate to appear at its office for my visa.
    In November, I received the notification that stated: ``Present 
yourself at the U.S. Consulate in Marseilles on December 8, 1941.''
    Early in the morning of December 8th, I stopped at a newspaper 
kiosk on my way to the U.S. Consulate. I saw a headline: Le Japon 
Attaque La Flotille Americaine A Pearl Harbor.''
    I stood transfixed. Never had I heard of Pearl Harbor, and now it 
was the fulcrum of my entire life. At nine o'clock, I presented myself 
to a receptionist at the consulate, and saw more than a dozen other 
visa applicants.
    We were told by the consulate that, ``In view of the hostilities, 
the consulate has been instructed to cease all visa-processing 
formalities until further notice.''
    A woman standing with her small children began to cry, so the 
children also cried. A dreadful wailing commenced. A mistake, we 
proclaimed. People are waiting for us, we moaned. Yes, yes, we were 
told by the consulate, but this is war and we all must make sacrifices.
    We waited at the consulate for someone in authority to enter the 
room, to tell us our pleas would be answered, that an exception would 
be made for us. No one came. As I left the consulate it seemed like a 
descent into doom.
    After being denied a visa to the United States, I spent the next 
six years on the run, barely escaping death. I had escaped Germany by 
swimming across the River Sauer; I escaped a French camp at St. 
Cyprien; I crossed the Alps by foot into Switzerland; hid in attics and 
ceiling crawlspaces; I escaped and leapt from a train at night that was 
bound for Auschwitz; I was arrested by French gendarmes, beaten by 
prison guards, and escaped again; and I joined the French resistance 
until the War in Europe was over.
    The end of the War in Europe in 1945 was not like the end of a 
winning ballgame or the beginning of a new year. Instead, it felt like 
the winding down of an endless era of exhaustion, and the beginning of 
a great unknown.
    I wanted to find myself in the United States. From Baltimore, I 
received a letter from my Aunt telling me to be patient. She had 
prepared another affidavit of support with help from the Hebrew 
Immigration Aid Society. But, at the time, there were thousands like 
me, trying to immigrate to the United States. The process was slow.
    Almost a year later, on March 18, 1946, I received a letter from 
the American Consulate in Bordeaux, saying that I had been given a low 
case number, 531. Receiving the low case number made me feel important.
    In December of 1946, I received my French exit visa. A week later, 
I was booked passage on the steamer John Ericsson. I departed for the 
United States in January of 1947.
    Early on the morning of January 29, 1947, I saw seagulls gliding 
through the air. An airborne welcoming committee, I thought. Our 
steamer was approaching the coastal waters of the United States. In the 
afternoon, the steamer entered New York harbor, moving past a fog-
enshrouded Statue of Liberty. Many of us stood on the deck of the 
steamer and gaped, not quite believing we had finally arrived. 
Spontaneously, we applauded her welcoming figure.
    I reached America in 1947 and hid my story for the next fourteen 
years. Why had my life been spared when so many had been taken? Would 
some miracle arrive in the mail, telling me that my mother and my 
sisters were still alive somewhere in the wreckage of Europe? However, 
I do know that if I and many others had received visas to immigrate to 
the United States in 1941, many of us would have been spared the 
horrific experiences we endured and many, many more people would have 
survived.
                               __________

    Ms. Lofgren. Thank you, Mr. Bretholz.
    Mr. Bazarov, you have reserved the time for after, and then 
we will go to Mr. Horowitz.

 TESTIMONY OF VALERY BAZAROV, DIRECTOR OF LOCATION AND FAMILY 
      HISTORY SERVICE, HEBREW IMMIGRANT AID SOCIETY (HIAS)

    Mr. Bazarov. Thank you.
    Madam Chairwoman, Ranking Member King, Members of the 
Subcommittee, thank you for inviting me to testify before this 
Committee which addresses the issue long time overdue.
    If somebody asks, ``Why address the matters which lost 
urgency a long time ago and with not many witnesses left who 
can testify their own experience?'' the answer is, we must 
address the matters which happened in the past just not to 
allow them to happen again. It could be argued that nobody 
learns from history. That is true. But there is always hope 
that the next time it will be different. I hope that this time 
it will be different.
    I have the honor to represent here, at this hearing, the 
Hebrew Immigrant Aid Society, HIAS, which opened its doors in 
1881, and since then until this day, assists Jews and other 
people whose lives and freedom are in danger. The objective of 
this statement is to show that the numbers of Holocaust 
survivors would have been far greater were it not for the 
policies of the U.S. State Department toward the immigration of 
European Jews.
    From 1933 through 1941, Germany permitted immigration. The 
problem was finding safe haven for the desperate refugees. It 
was only in the end of 1941 that the Nazis instituted the 
infamous Final Solution and the fate of millions of Jews was 
sealed.
    Immigration in the time of peace was not an easy 
assignment. During the war, with the rules set by the State 
Department, it became almost mission impossible. To leave 
France, for example, a refugee needed an exit visa, a transit 
visa, an entry visa for the country of destination, affidavits 
of support--laural and political affidavits, certificates of 
good behavior, and paid tickets for the ship destined for the 
United States or other country of immigration. Documents with 
expiration dates had to be valid on the day of departure. Just 
one document had expired and the refugees needed to start all 
over again.
    In addition, visas were valid only for up to 4 months, and 
the tickets overseas were sold out for many months ahead. 
Moreover, the tickets would be not sold without issued entry 
visas, and of course the United States consulate would not 
issue a visa without a ticket. It is not surprising that the 
majority of the refugees could not make it.
    Sometime ago, I interviewed Hellen Katel, who worked for 
HIAS in France in 1940 and 1941. She remembered that she and 
her colleagues wept when they were obliged to choose from among 
the thousands of applicants only a few who met the requirements 
of the State Department.
    In 1941, FBI, through the State Department, reviewed 
allegations against HIAS, which allegedly was bringing the 
Gestapo agents under power of the refugee status. The answer of 
the consulate was straight and left no doubt that HIAS's 
integrity was intact.
    However, 3 weeks after the positive reports, State 
Department addressed the consulate with the following document: 
The Department received information from reliable confidential 
sources indicating that the Gestapo is using the Jewish refugee 
organization, HICEM--it is another name of HIAS in Europe--in 
getting their agents into the United States and other western 
hemisphere countries. It is suggested that any application for 
visas of persons to whom this information applies be examined 
in the light thereof. The only plausible reason for the State 
Department to issue such decree was an attempt to restrain 
lifesaving Jewish immigration.
    Now, I asked for permission to testify after Mr. Bretholz 
because his testimony is not complete. He doesn't have in his 
documents, and I was able to procure them from our archives. He 
was denied the entry to the United States for the first time in 
June 1941, long before Pearl Harbor happened. That is when he 
received the letter from the consulate that the rules of the--
again, and his visa was canceled. Now remember, David Harris 
quoted this quotation from Breckenridge Long, ``Postpone, and 
postpone, and postpone.''
    According to the Jewish tradition, to save a life is to 
save the world. We will never know the exact number of those 
who might be saved were it not for the U.S. State Department 
policies in effect at that time. What we do know is that the 
loss is incalculable as millions of universes were extinguished 
forever.
    Thank you.
    [The prepared statement of Mr. Bazarov follows:]
                  Prepared Statement of Valery Bazarov
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Ms. Lofgren. Thank you.
    And finally, Mr. Horowitz.

 TESTIMONY OF MICHAEL HOROWITZ, SENIOR FELLOW, HUDSON INSTITUTE

    Mr. Horowitz. I am Michael Horowitz. I am a fellow at the 
Hudson Institute. I have spent my career fighting racism, 
dealing with human rights. I was a professor of civil rights 
law at the University of Mississippi teaching the first 
integrated classes and had my share of run-ins with the Ku Klux 
Klan. I have been deeply involved over the last 10 years with 
right-left coalitions that have passed laws like the 
International Religious Freedom Act, the Trafficking Victims 
Protection Act, the Sudan Peace Act, the North Korea Human 
Rights Act, the Prison Rape Elimination Act, and other such 
laws.
    I deeply believe that American interests are only strong 
when American values are honored, and so I am pleased and 
honored to be here today. I have got a wife who is a doctor; I 
have been a little under the weather, but I am here. If it were 
my deathbed I would be here, because I think that importance of 
this hearing is so critical.
    How can it be said to be critical? I mean, you are dealing 
with billion, trillion dollar bailouts and collapses of 
economies. My judgment is, how a nation defines itself, how it 
sees its own history--if it gets it right, if we get it right--
it will do more to solve the toxic mortgage problem than all of 
the bailouts. History is how we understand ourselves and how we 
move on in the future.
    And so let me say that I am on this panel with men that I 
am just so honored to be with, and I agree with everything they 
have had to say, because a great nation needs to learn from its 
mistakes. If we are blind to our mistakes, we will not remain a 
great nation. And I would say as a Republican, my last 
appearance before a Judiciary Committee came when I opposed 
with all I had in me Bush administration policies that defined 
material support in ways that would require--that treated as 
terrorists women who were forced to wash the clothes of 
terrorist rapists.
    I come here in context of H.R. 1425, and I think it is 
very, very important to indicate that we learn from history 
only if there is balance, not prejudgment; if there is 
scholarship, not anecdotal work. And that is why I am here to 
talk about Section 101 of the bill, the one that deals with the 
German, Italian, European Commission.
    I would get off my sacred deathbed to ask this Committee to 
delete or oppose that provision, and here is why: That 
provision profoundly ignores context. You read the findings, it 
is as if we never fought World War II; it is as if we were 
never vulnerable to lose World War II.
    Doctors talk about a retrospectoscope; everyone is perfect 
when they have one, but there is no balance there. And there 
are no facts as one looks at that hearing--at that provision. 
The bill ignores, it blurs the treatment between enemy alien 
citizens of Germany and Italy and the United States citizens.
    Its numbers are wildly skewed. One looks at numbers like 
300,000. We don't know what the numbers are but we can, I 
think, fairly be confident that the numbers in the findings 
section are not accurate.
    The bill also ignores the fact that in context, we were 
looking at, as I am sure John Fonte has indicated, brownshirt 
and blackshirt and Bund organizations that were rampant 
throughout the United States. I grew up in the Bronx, and I 
have got to tell you that my Italian friends--and most of them 
were Italian--would not have given hearings, however imperfect 
they may have been, and appeals to many of the people who were 
interned; they would have had them executed. And I note that 
the bill talks about that they love this blessed land, and they 
hated the kinds of people who were actively intimidating in 
support of the Fascists and Nazis who had taken over their own 
home country.
    And so I think that that bill ignores that. It ignores the 
hearing rights that were present. It ignores the spy networks. 
And frankly, having sat on this panel and been moved by it, it 
just offends me so deeply that this bill, inadvertently or 
otherwise, ties America's treatment, imperfect as it was, of 
the enemy aliens with what we did to immigrants seeking to come 
into the United States. Every one of those immigrants would 
have given anything to have been treated twice as badly as we 
treated those enemy aliens.
    Now, the main point I want to make about that commission 
is, its--I will wrap it up--not only its lack of balance, but 
its call for membership. It calls for four members who are 
involved in, who are active in the Italian American and German 
American affairs.
    What we need if we are going to do it right is scholarship, 
and we have talked about Professor Abzug. Let me just close. 
There are two things I want to say.
    One, I don't have the chance to talk about its impact on 
the crisis we now confront with terrorism, but Professor Abzug, 
just before this hearing, asked me--authorized me to say 
something about the scholarship, and Mr. Christgau who--he 
cares--but here is what he had to say, this Regents professor: 
``As my review stated, the Christgau book is lightly 
researched, anecdotal, and in no way delivers compelling 
evidence of widespread abuse that can be compared to the 
situation of Japanese Americans during the war. In fact, I came 
away from reading the book with the distinct impression that 
abuses were present, but not widespread, on the basis of the 
author's lack of evidence, lack of research and rigor, 
especially when one considers the security context of the 
time.''
    So if you are going to do it, insist that scholars like the 
kinds of scholars who research what Abraham Lincoln did during 
the Civil War, who can provide balance----
    [The prepared statement of Mr. Horowitz follows:]
                 Prepared Statement of Michael Horowitz
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. Mr. Horowitz, your time is expired. We do 
appreciate your testimony, and we appreciate the testimony of 
all of the witnesses.
    At this point we have time for questions, and I would turn 
first to the Ranking Member, Mr. King, to see if he has 
questions for the panel.
    Mr. King. Thank you, Madam Chair, and as I listen to the 
testimony, something occurs to me, was a statement made in the 
Judiciary Committee 2 years ago by one of our Members, who 
said, ``Nazis predominantly were Christians and the Holocaust 
was a Christian tragedy.''
    I would ask first Mr. Harris, would you agree with that?
    Mr. Harris [continuing]. That is going to require a 
separate hearing. I would put it this way, sir: I would say 
that European soil for centuries was tilled by Christian anti-
Semitism. And when the pagan philosophy of the Nazis, however 
they were born, whatever their baptismal certificate said, 
came, and they pursued the notion of a final solution, they 
found very fertile ground largely because of the result of 
centuries of the teaching of contempt and the imposition of 
everything from forced conversions to inquisitions, and so 
forth. So I would be a little more careful in the wording than 
the question presented, but nonetheless there is a connection.
    Mr. King. And it is a cultural connection rather than 
religiously based. Would you agree with that?
    Mr. Harris. I would agree that the Third Reich did not act 
in the name of Christian faith. To the contrary, there were 
many Christian clergy in countries like Poland who themselves 
were targeted, who were incarcerated in concentration camps, 
and in many cases killed as Christian zealots and others.
    Mr. King. And you had described it as a pagan philosophy. 
Is Nazism a pagan philosophy?
    Mr. Harris. That is the way they themselves would describe 
it.
    Mr. King. As I would too, and I think that point of clarity 
needed to be brought, Mr. Harris. And then, have you in your 
studies--first, I have got great sympathy for this argument 
that here, and I can't put myself into the context of the 
history back in that time, but, you know, I would think that 
bringing the ``St. Louis'' into the United States would be 
something I would like to think I would have approved in a 
heartbeat. This one really is stark, and it stands out to me.
    But I don't think I am hearing the other side of this--the 
balance, the historical balance in this. And that is, the end 
that was put to Nazism by the free world, would you say that--I 
don't want to put words in your mouth, I just wondered, do you 
have a speculation on how many Christians gave their lives to 
end the Nazi Holocaust?
    Mr. Harris. First of all, in my full written testimony, 
Congressman King, I speak about the dramatic issues that 
Franklin Roosevelt faced as President of the United States, 
including a country that itself was largely unwilling to go to 
war after rescuing Europe in the First World War. I give him 
credit for leading this Nation to the realization we would have 
to fight again, and you men particularly--young women as well, 
but primarily young men on the battlefield, and I would add not 
just Christians, but people of all faiths including many Jews--
500,000 American Jews served in the military--and yes, we 
should never lose sight of the fact that at the end of the day 
the Allies, lead by the United States together with Great 
Britain, and I have to add the Soviet Union, vanquished the 
Nazi dream of a 1,000-year reign; there is no question about 
it.
    Mr. King. I thank you, Mr. Harris, and I think it does take 
another hearing to flesh this out. Myself, I feel the urge to 
go way deep into that history and lay out a lot more of the 
foundation of it.
    I wanted to ask Mr. Bretholz that--I would think there 
would be a bond there, but have you read Victor Frankl's 
writings?
    Mr. Bretholz. Yes.
    Mr. King. And I just, as I listened to your testimony, 
his----
    Mr. Bretholz. He was Viennese, by the way. He was Viennese, 
just like I.
    Mr. King. Yes.
    Mr. Bretholz. I like to say, I am from Vienna, but nothing 
is perfect in life, you know.
    Mr. King. The delivery and the tone in your testimony 
brought that to mind as I listened to you today, and I wanted 
to reference that and ask if you learned anything from his 
search for meaning.
    Mr. Bretholz. If I had what?
    Victor Frankl's search for meaning. Well, it is a text in 
schools now, just like my book has been taken and also is a 
text recently, but it has confirmed everything that I had 
experienced myself. And of course, Victor Frankl had a 
different reaction and he made something positive out of his 
life, while--from Italy, what is the fellow that came--Primo 
Levi was a destroyed man after the camp. Frankl did something 
positive and Primo Levi could not exist after that.
    Mr. King. Thanks, Mr. Bretholz.
    I thank you all for the witness. Mr. Horowitz, if I could--
--
    Mr. Bretholz. One more thing about Christians.
    Mr. King. Yes.
    Mr. Bretholz. Do you know the late historian, Professor 
Halebrook, said that Hitler's plan to annihilate the Jews was 
the culmination--this comes back to the point of Christians--
was the culmination of what had happened for centuries. There 
is a book written by a Jesuit priest, Edward H. Flannery, he 
called it ``The Anguish of the Jews''--23 centuries of anti-
Semitism. But the early missionary said you may not live among 
us as Jews, so the Jews converted. They may be allowed to live.
    Then came the secular Christians, and they said later on in 
the Middle Ages, they said, ``You may not live among us.'' So, 
you may not live among us, so they went into shtetles, in the 
first shtetle in Venice, is an Italian town, and then came 
Hitler and he made it a very simple, short--, ``You may not 
live,'' you know? And this was the culmination of it all.
    Ms. Lofgren. Thank you, Mr. Bretholz. The gentleman's time 
has expired, and we are about to be called for votes, so I am 
going to ask Ms. Sanchez if she has a question before hearing 
from Mr. Lungren.
    Ms. Sanchez. Well, in the interest of time, because we are 
going to be summoned for votes shortly, I will submit written 
questions for our panelists and some of our previous panelists. 
I just really want to commend all of you for your testimony and 
your bravery in coming forth and sharing your stories, and I 
think that absolutely those that don't study history are doomed 
to repeat it, and I think your stories show that, you know, and 
idealized version of history does nobody any good. We really 
need to examine the good and the bad in the hopes that in the 
future the bad won't be repeated.
    And with that I am going to yield back my time.
    Ms. Lofgren. The gentlelady yields back.
    I would turn to Mr. Lungren to see if he has a question.
    Mr. Lungren. If I could just make a comment, and some may 
think this is a little off, but one person that we don't 
recognize for his greatness during this time is a fellow, 
Dwight D. Eisenhower, for the great contributions he made to 
make sure that we knew that there was a Holocaust and that 
there were concentration camps. He was a Midwestern raw-boned 
American who--justice did his job as he thought he should, and 
we don't give him enough credit for the enormous job he did.
    But secondly, it was his innate goodness and his--horror 
that he found with the concentration camps that lead him to 
make sure that we documented that so that the non-believers and 
the disclaimers would be put to a lie. I know that is not the 
subject of this hearing, but he happens to be one of my heroes, 
and we just don't mention it often enough.
    Thank you.
    Ms. Lofgren. At this point, the bells are going to ring any 
moment. So I would just like to not ask questions but really 
thank, once again, the witnesses, from Mr. Masterson and Ms. 
Shimizu and Ms. Yamamoto, especially those of you who came all 
the way from California to talk about your stories and to 
inform us, this is on the Web. So not only are we looking at 
your testimony here in this room; I think people all over the 
world have had the benefit of what you have said. And hopefully 
this will inform us as we move forward. I am enormously 
grateful for your presence and also the extra efforts that you 
have made over the years.
    For our second panel, I know Mr. Christgau and Ms. Ebel and 
Ms. Donald and, of course, Dr. Fonte, we appreciate your 
approach on the bill, but the personal stories are hard to 
tell. I know that. And that you would share them with us to 
inform us as we proceed means a lot to me and, I think, to all 
of the panel.
    And finally this last panel. Mr. Bretholz, as you were 
speaking I leaned over to Mr. King and said, what a tremendous 
feat of survival and bravery that you were able to share with 
us. And really the history that we have learned, you are right, 
is to inform our future.
    And that is really what we are talking about with all of 
this. We can't undo the past, but we can try to understand our 
history, to acknowledge when mistakes were made--only a big 
country can do that--and to learn so that we can be a better 
country going forward.
    So I want to thank each of you for being here today and for 
your tremendous efforts. We will keep the hearing record open. 
If Members have additional questions we would ask that they 
would be submitted to you and that you respond to them within 
the--saved by the bell, yes, those bells there are to let us 
know that our presence is required on the House floor, so we 
will adjourn this meeting asking Members to submit additional 
questions within 5 days. And thanks to all of you.
    This hearing is adjourned.
    [Whereupon, at 2:15 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    I would like to welcome the Subcommittee Members, the public, and 
especially our witnesses, many of whom have come from all over the 
country to share a part of U.S. history that many of us are unfamiliar 
with. Some of our witnesses will tell us deeply personal stories that 
are very difficult to share and I would like thank them for being here 
today to provide this important part of history for us.
    Much is known about the internment of 120,000 Japanese Americans 
during World War II, partly due to the enactment of the Commission on 
Wartime Relocation and Internment of Civilians Act in 1980, the 
Commission's report in 1983, and the subsequent Civil Liberties Act of 
1988 that provided an official apology for the internment of Japanese 
Americans. What is not as well known today is the mistreatment of 
thousands of Japanese and European Latin Americans, European Americans, 
and Jewish refugees prior to and during WWII.
    The 1980 Commission did detail the mistreatment of Japanese, 
German, and Italian Latin Americans, but only in the appendix of their 
report. It also included just one chapter of thirteen on mistreatment 
of German and Italian Americans in the U.S. Furthermore, no 
recommendations were made on these populations and there was no 
official apology, as was done for Japanese internment, pursuant to the 
Civil Liberties Act of 1988.
    It is time for this history to be fully heard and considered.
    I would like to note that although there are two bills that have 
been referred to this subcommittee concerning the issues we are 
examining today, this is NOT a legislative hearing. Before we consider 
specific legislation on an issue that many are very unfamiliar with, 
indeed, our general history books are sparse in this area, it is 
important that we learn the facts and listen to the history to 
determine whether legislation is the appropriate response. If it is, we 
will then turn to the bills referred to this subcommittee and examine 
whether the specific language in the bills is appropriate or whether 
amendments are needed. I welcome comments on the bills and will 
consider them if we decide to move legislation in this area. Today, 
however, I am particularly interested in learning about the issue and 
whether another commission is indeed necessary to review history that 
has not been told in an adequate way.

                                <F-dash>

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    Reconciliation and justice can only come after the truth is known, 
and as commissions of inquiry have played important roles in the United 
States and abroad. Today, we are going to look at how the US Government 
undertook broad sweeps against perceived ``enemy aliens'' after an 
attack on our country. But unlike hearings we've held on rendition, 
detention, and mass round-ups in the wake of the September 11 attacks, 
today we're going to look at the government's actions during World War 
II. Let me lay the playing field as I see it:
    First, there is a consensus that the Commission on Wartime 
Relocation and Internment of Civilians in the 1980s was particularly 
effective in confronting the historical record of the arrest and 
internment without due process of Japanese Americans during the Second 
World War. The work of that commission which led to an official apology 
and some measure of restitution for the victims of internment.
    Second, despite the good work of that commission, there is 
additional history involving other populations that were also 
mistreated during World War II that have not been sufficiently 
examined. This history involves the rendition of thousands of Japanese 
and European Latin Americans to the United States for incarceration, 
the internment of at least 1,500 German and Italian-Americans, and the 
callous rejection by consular and immigration officials of Jewish 
asylum seekers seeking to flee Nazi oppression.
    There are several bills being circulated in Congress for 
commissions of inquiry into these matters, and today's hearing will 
help us weigh those proposals.
    Third, what we do today will not substitute for sustained study 
that grapples with the hard questions of what America does with 
minority communities in a time of war. While we can shine a little bit 
of light today on these unfortunate chapters in our history, one 
hearing is just part of the historical conversation.
    We have seen this in other areas--the Committee's oversight 
hearings on rendition, torture, surveillance, and racial profiling of 
Arab communities have had an impact on American policy, but they are no 
substitute for a truth and reconciliation inquiry into abuses in the 
name of the war on terror.
    So too, legislation that we passed in the 110th Congress 
commemorating the 200th anniversary of the Slave Trade Act and to 
provide new tools to enforce the 13th amendment's guarantee of freedom 
do not take the place of a commission that would help us confront the 
ongoing effect of chattel slavery on this nation.
    So I am looking forward to hearing from our witnesses today, and 
participating in the ongoing conversation about how we can preserve the 
rights of ethnic minorities and refugees in wartime, so that these 
tragic episodes are not repeated.

                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Thank you Madam Chairwoman for convening today's very important 
hearing where we will consider, ``The Treatment of Latin Americans of 
Japanese Descent, European Americans, and Jewish Refugees During World 
War II.'' This hearing explores the treatment of Latin Americans of 
Japanese descent. In addition, there are other populations mistreated 
during WWII whose histories have not been fully examined by the Federal 
Government in a similar manners as the histories of the Japanese and 
Italian Americans mistreated during WWII.
    The Japanese, German, and Italian American communities have 
advocated for an official government study of the mistreatment of their 
communities in Latin America by the U.S. government in a similar manner 
as was completed for Japanese Americans interned during WWII.
    The mistreatment of Japanese Latin Americans is the subject of H.R. 
42, a bill that has been referred to this subcommittee. H.R. 42 
establishes a fact-finding Commission to extend the study of the 
Commission on Wartime Relocation and Internment of Civilians to 
investigate and determine facts and circumstances surrounding 
relocation, internment, and deportation to Axis countries of Latin 
Americans of Japanese descent from 1941 to 1948, and the impact of 
those actions by the U.S., and to recommend appropriate remedies. The 
mistreatment of German and Italian Latin Americans is the subject of 
H.R. 1425. In addition, the mistreatment of Jewish refugees during WWII 
is the subject of H.R. 1425.
    Today we have distinguished panelists on three separate panels. I 
look forward to hearing today's testimony and hearing from each of the 
witnesses on this topic.
    Chairwoman, thank you, again. I yield the balance of my time.

                                <F-dash>

              Additional Material submitted for the Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


--------
Note: Due to the voluminous amount of material submitted, only a 
portion is being published in this hearing. All material submitted is 
on file with the Subcommittee.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre></body></html>
